<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                        WEDNESDAY, JUNE 3, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:49 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Dorgan, Reed, Tester, and 
Alexander.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. KEN SALAZAR, SECRETARY


             opening statement of senator dianne feinstein


    Senator Feinstein. The hearing will come to order, and I 
would like to say good morning to everyone. And I would 
particularly like to say this is our third and final budget 
hearing before the Interior subcommittee.
    This morning, we are honored to have our distinguished 
former colleague and now Interior Department Secretary Ken 
Salazar. Mr. Salazar said when I met him in the hall, ``Are you 
going to give me a bad time this morning?'' And I said, ``How 
can we give you a bad time?'' Right?
    I mean, I think most of us in the Senate that have worked 
with Senator Salazar believe he is really a wonderful person, 
and we are so delighted that he is Secretary of the Interior. 
So this hearing should be a piece of cake.
    Joining the Secretary at the witness table this morning is 
Pam Haze, the Department's Budget Director. And so, I would 
like to say good morning to you, Ms. Haze. And it is a pleasure 
to see you again as well.
    Mr. Secretary, the budget request you are presenting today 
totals $10.98 billion. That is an increase over last year's 
level of $904 million, or 9 percent. This is the largest budget 
increase in the past several years and represents a real push 
in the right direction in several important areas.
    First, I would like to thank you very much for requesting 
full funding for the fire suppression account. Those of us in 
the West truly know its value. The $445 million in the Interior 
budget, along with the $1.4 billion in the Forest Service 
budget, brings the administration's total fire suppression 
request to $1.8 billion. That is the same amount actually spent 
on average on each of the 3 prior fiscal years.
    So this means that, if we are lucky, neither agency will 
have to borrow from its nonfire accounts, which happens every 
year, and then hope and pray that the Congress replenishes 
these funds. That is not a good way to do business, and I would 
like to applaud you for stepping up to the plate and 
acknowledging what fire suppression really costs.
    I would also like to thank you for allocating for full 
fixed costs within your budget. As a former mayor, I know that 
setting aside funds to pay for such things as increased rent, 
utilities, and employee healthcare costs are not the fun things 
we like to put in our budgets.
    But the fact is that over the past 8 years, the Department 
has absorbed more than $500 million in unfunded fixed costs, 
and that just can't keep going on and on.
    That money came out of programs just the same as if the 
cuts had been proposed up front. So congratulations on 
reversing that trend.
    There are also substantial increases in funding for the 
Land and Water Conservation Fund, for the National Park 
Service, for energy development, and for a climate change 
initiative. All in all, you have presented us with a robust 
budget, and I think in whole that this will be favorably 
received.
    In the interest of time, Mr. Secretary, I am not going to 
go through every line in your budget, but I will say that I 
hope to engage you in questions on renewable energy 
development, abandoned mines, and drugs on public lands.
    I would now like to recognize my very distinguished ranking 
member. I welcome him to this position and enjoy working with 
him, Senator Alexander.


                  statement of senator lamar alexander


    Senator Alexander. Thank you, Madam Chairman.
    Secretary Salazar, welcome back. It is good to see you, as 
the chairman said. We miss you, but we are glad you are able to 
make the contribution that you are today.
    I will reserve most of my comments until question time. But 
let me just mention the areas in which I am especially 
interested.
    You and I worked together on the Land and Water 
Conservation Fund, had a little success on that across the 
aisle in finding a permanent source of funding for Land and 
Water Conservation Fund. I hope that is one of your legacies as 
Secretary of the Interior, and I would like to work with you on 
that.
    I would like to talk with you a little bit about the 
funding for the Great Smoky Mountains National Park, which has 
two or three times the visitors of some of our other popular 
parks, but about half the funding just because of circumstances 
of history.
    I would like to ask you a question about helicopter 
overflights in the parks. It seems like a small item, but there 
are supposed to be plans developed for dealing with those 
things. And since the law was passed in 2000, no plans have 
been developed. I would like to find out what we can do to move 
that ahead.
    And then picking up on what the chairman said, I have got 
some questions about what I would call the upcoming renewable 
energy sprawl. Those aren't my words. Those are the words of a 
conservation group.
    We all want renewable energy, but the landscape is an 
important part of the environment as well. And you come from a 
beautiful State. I do, too. The chairman does, too. And we want 
to make sure that before we embark on these renewable energy 
projects, they are massive in size, and we know what we are 
doing and that we take time to make sure we don't destroy the 
environment in the name of saving the environment.
    And I hope another of your legacies is to take the words 
that you used when you slowed down the Utah oil and gas lease 
sales. You talked about responsibly developing oil and gas 
supplies in a thoughtful and balanced way that allows us to 
protect our signature landscapes and cultural resources. That 
applies to oil and gas, but also applies to large solar plants, 
to wind turbines on ridge tops, to how close to the shore we 
would put wind turbines as you authorize them. And that will be 
another area of my questions.
    But welcome. I look forward to working with you.
    I thank the chairman.<greek-l>
    [The statement follows:]


 
                        INSERT 6A FOLLOWS-- deg.

    Senator Feinstein. Mr. Secretary, welcome. We very much 
would like to hear from you.


                 summary statement of hon. ken salazar


    Secretary Salazar. Thank you very, very much, Chairman 
Feinstein and Ranking Member Alexander. Both of you are great 
Senators and great former colleagues and present colleagues of 
mine because I view my role as Secretary of the Interior as 
being interwoven with the work of your subcommittee and your 
leadership and the work of your great staff.
    We have many chapters to write together in the years ahead 
on issues that I know we share a common value. The issues that 
we are working on are not Democratic or Republican issues, they 
are issues for America and for all of our population.
    I appreciate the opportunity to appear before you today, 
and I have a statement that I will submit for the record. And I 
would like, if it would be okay with the chairperson, to make a 
few comments about the budget overall and my priorities?
    Senator Feinstein. It would. Please proceed.
    Secretary Salazar. When I came into the position of 
Secretary of the Interior, one of the things that I wanted to 
do was to make sure that the people of this country understood 
the responsibilities of this Department. It truly is the 
Department of the Americas. We have responsibilities for 20 
percent of the landmass of the United States, and 1.75 billion 
acres of the Outer Continental Shelf (OSC), and we have 
responsibilities that go from pole-to-pole and include the 
territories of the United States.
    Some, I think, in the past have felt the Department was 
only a department for the West. But as Senator Alexander knows, 
the Great Smokies are one of the icons of our National Park 
System. The wildlife refuges of Florida or the great parks and 
assets that we have in California and the tribal issues that we 
have all over this country really mean that we are enmeshed in 
all of the great issues that cover our landscapes and the 
peoples of America.
    One of the first things I did was I went to the Statue of 
Liberty because I wanted to make sure that people understood 
that this Department was a department of the United States of 
America.
    Within the work that President Obama has asked me to do on 
behalf of this administration are the following five 
priorities, and I look forward to working very closely with all 
of you on these issues.


       creating a new energy frontier and tackling climate change


    The first is creating a new energy frontier and tackling 
the challenges of climate change. This budget reflects our 
priorities with respect to renewable energy, how we move 
forward to harness the power of the sun, the power of 
geothermal, the power of the wind, but to do it in an 
environmentally conscious way.
    We are, as Senator Alexander spoke about and with respect 
to the statement that I said on the Utah lease sales, making 
sure that as we move forward with the development of a 
renewable energy world, which we are going to develop, that we 
are also thoughtful and mindful of making sure that we are 
protecting those landscapes that both of you have fought so 
hard for so many decades and which I believe are very much an 
important part of my role as Secretary of the Interior.


                          treasured landscape


    Second, I will work very hard to establish a treasured 
landscapes agenda for the United States of America. At the 
request of Senator Alexander a few weeks ago, maybe a few 
months ago now, I met with Henry Diamond and a number of other 
people who were involved in the original creation of the Land 
and Water Conservation Fund.
    When one looks back at those conversations that took place 
in the Secretary of the Interior's office with Stewart Udall, 
you are left with a sense, given our fights together here to 
put funding into a Land and Water Conservation Fund (LWCF), 
that there truly has been a breach of the trust with the 
American people relative to the investment of resources that we 
have gotten from the Earth, which belongs to the American 
people in the form of public lands.
    When LWCF was created, the thought was that we would take 
royalties from offshore oil and gas development, as well as 
some from onshore, and we would create a trust fund from which 
would flow the investments to make the landscapes that both of 
you have fought so hard to protect a reality. The fact is, last 
year, we raised about $24 billion through the activities of the 
Minerals Management Service (MMS) and the Bureau of Land 
Management (BLM), and at the end of the day, there was only 
$255 million that was appropriated from the Land and Water 
Conservation Fund.
    I will look forward to working with both of you, working 
with the White House, and working with our colleagues in the 
House to take a moon shot with respect to investing in the 
treasured landscapes of America. That will take us to the 
restoration of great places like the Bay Delta in California 
from an ecosystem perspective, to the Chesapeake Bay, to what 
we do in the Everglades, to the kinds of investments that, 
Senator Alexander, you want to make in the heritage and future 
of the Great Smoky Mountains National Park.
    And so, there is a great agenda that I want to work on with 
you all.


                 21st century youth conservation corps


    Third, I will help usher in with all of you, a new 21st 
century Youth Conservation Corps that reflects the realities of 
our times here in the 21st century. We need to get our young 
people connected to our landscapes in terms of environmental 
education and understanding the importance of stewardship.
    This budget reflects that priority, for example, by 
allocating $30 million for hunting and fishing programs for 
young people in the form of a grant program that will be made 
available to the States. It also includes $20 million for 
educational and service programs for young people in the 
Department of the Interior.
    This summer alone, based on money that you made available 
and direction that we had from you and others here in the 
Congress, we will have 15,000 young people that will be working 
with us in the Department of the Interior, helping us restore 
trails and doing other kinds of service that are important in 
terms of engaging young people.


                 empowering native american communities


    Fourth, we will do everything we can to empower the 
Nation's Native American communities. The issues of law 
enforcement, economic development, and education are huge 
challenges for Native Americans all across this country. Those 
issues are addressed in this budget by adding additional 
resources in law enforcement and in education. They build off 
of the investments that we made through the Recovery Act into 
those agendas.
    Assistant Secretary of Indian Affairs Larry Echo Hawk and I 
have already had several meetings on his first week of the job 
where we are moving forward with respect to the agenda on our 
Native American communities.


                                 water


    Finally, I will work very hard to help address some of the 
vexing water problems that face us that are connected to how we 
deal with taking care of our wildlife and our plant species. 
The Bay Delta in California is a great example of one of those 
very complex water supply issues, which also has many other 
facets to it. The issues between Florida, Georgia, and Alabama 
with respect to the allocation of water on their rivers is also 
one of those issues that we will work on.
    Those are some of my priorities. I am proud of the budget 
that we have presented to all of you. I look forward to working 
with you in the days to come.


                           prepared statement


    I appreciate the confirmation that you gave to Assistant 
Secretary for Policy, Management, and Budget Director Rhea Suh. 
Rhea Suh comes here, I think, in her first day on the job 
today, to hear the testimony before us.
    Rhea, I think you are here. Here she is. I want to 
introduce Rhea because she will be working with us on a lot of 
these issues.
    Thank you very much.
    [The statement follows:]
                   Prepared Statement of Ken Salazar
    Chairman Feinstein and members of the subcommittee, I am pleased to 
be here today to present the details of the 2010 budget request for the 
Department of the Interior (DOI). I want to thank the Chairman and this 
subcommittee for its interest in and support for Department of the 
Interior programs, most notably those that ensure the stewardship of 
the Nation's natural and cultural resources and our special 
relationship with Native Americans and Insular Areas. Your interest in 
this department and support for Interior's programs has helped to build 
a strong foundation for a clean energy future and to tackle climate 
change impacts, conserve our treasured landscapes, and empower Native 
American communities. I look forward to working closely with this 
subcommittee to build on that foundation.
                              introduction
    I am honored to serve as the 50th Secretary of the Interior and to 
oversee this Department and its 67,000 dedicated employees. Our 
expansive mission stretches from coast to coast. It spans the continent 
from the subtropical Everglades in Florida, west across 12 time zones 
to the insular areas in the Pacific, and north to the vast tundra in 
Alaska. Our land and community-based programs touch the lives of most 
Americans, including 1.7 million Native Americans and Alaska Natives.
    Interior manages 500 million acres or about 1 in every 5 acres in 
the United States, including 391 National Park units, 550 wildlife 
refuges, the 27 millionacre National Landscape Conservation System, and 
other public lands. These places are treasured landscapes and serve as 
economic engines for tourism and growth opportunities for recreation, 
wildlife conservation, and responsible resource use.
    The Department's public lands and 1.7 billion acres on the Outer 
Continental Shelf (OSC) supply nearly one-third of the Nation's 
domestic energy production. These resources are vital to the Nation's 
energy security and provide economic returns to the Nation. In 2010, an 
estimated $14 billion in revenues will be generated from these lands 
and waters.
    The Department fulfills its special responsibilities to Native 
Americans managing one of the largest land trusts in the world 
including over 56 million acres held in trust for Indian tribes and 
individual Indians, over $3.4 billion of funds held in over 2,700 trust 
accounts for approximately 250 Indian tribes, and over 380,000 open 
Individual Indian Money accounts. The Bureau of Indian Education (BIE) 
school system provides services to approximately 42,000 students in 23 
States attending 183 elementary and secondary schools and supports 30 
tribally controlled community colleges, universities, and postsecondary 
schools.
    The Department of the Interior is truly the department of America. 
We are uniquely positioned to provide enduring benefits to the American 
people. Our 2010 budget will allow us to make wise and prudent 
investments that will allow us to maximize opportunities to realize the 
potential of our lands and waters, resources, and people.
                           the first 100 days
    Today I celebrate my 134th day as the Secretary of the Interior. It 
has been an exciting time as we have begun to impact how the Department 
of the Interior does business. We have already implemented changes to 
improve accountability, transparency, and ethical reform; established a 
vision for a new energy frontier that will help to produce and transmit 
renewable energy from our public lands while protecting our treasured 
landscapes and environmental quality; set an agenda for protecting 
America's open spaces and treasured landscapes with stewardship and 
enhanced climate impacts management based on sound science; started 
restoring the Government-to-government relationship with Indian tribes; 
announced a new 21st Century Youth Conservation Corps; and implemented 
the President's economic recovery plan.
    We have released detailed implementation plans for $3 billion 
appropriated in the American Reinvestment and Recovery Act that could 
create as many as 100,000 jobs in communities across the Nation, while 
significantly improving the safety and energy efficiency of our 
facilities; the state of our roads and trails; and habitat for wildlife 
including endangered species. This funding will also help to 
significantly accelerate efforts to realize the clean energy potential 
of our public lands by funding environmental planning, studies, and 
analyses.
    Thanks to your support, the Recovery Act provided $2 billion for 
the programs funded by this subcommittee. Over 40 percent of these 
funds will be spent on deferred maintenance projects including road and 
trail maintenance, and 35 percent will be spent on construction and 
capital improvement projects. We are building and repairing Indian 
schools, stabilizing America's signature park structures, retrofitting 
our buildings to improve energy efficiency, restoring landscapes for 
wildlife and people, correcting safety hazards such as abandoned mines, 
and clearing trails. These projects will stimulate local economies 
across the Nation by providing employment opportunities and will make 
our parks, refuges and public lands more welcoming for over 450 million 
people that visit our lands each year.
    Throughout the development of our Recovery Act program, I worked 
closely with the Bureaus to encourage them to find the most meritorious 
projects. I believe that we have chosen well and that our projects will 
maximize job creation, help to stimulate the economy, meet the 
prescribed timeframes for completion, provide lasting benefits, and 
make you proud that you invested in our programs.
    Our Recovery Act investments in the Bureau of Land Management (BLM) 
will lay the groundwork for a critical national priority--achieving a 
clean and independent energy future. BLM will jump-start renewable 
energy development activities by conducting the regional environmental 
impact assessments and technical studies needed to pro-actively 
identify areas suitable for potential development, while ensuring we 
protect our treasured landscapes and ensure substantive public input. 
This investment is the first step to fulfill a commitment I made in a 
March 11 Secretarial Order making the production, development, and 
delivery of renewable energy top priorities for the Department. I 
established an energy and climate change task force to spur a clean 
energy future and identify specific zones on public lands where 
Interior can facilitate a rapid and responsible move to large-scale 
production of solar, wind, geothermal, and biomass energy. For these 
renewable energy zones to succeed Interior will need to work closely 
with other Federal agencies, States, and tribes to identify electric 
transmission infrastructure and transmission corridors that are needed 
to deliver these renewable resources to major population centers, while 
preserving the values of our treasured landscapes and protecting the 
environment.
    Through the investments we are making with Recovery Act funding we 
will conserve America's timeless treasures and icons of our culture and 
heritage. Our projects will restore monuments, stunning natural 
landscapes, and parks and public lands that are integral to the lives 
of communities across the country. During the first 100 days of this 
administration the Congress enacted and President Obama signed the 
Omnibus Public Land Management Act of 2009, which will help us protect 
these important assets. In addition, our Recovery Act plan includes 
2,291 projects in National Parks, refuges, and public lands. These 
projects will accelerate our efforts to restore and protect natural and 
cultural resources.
    You directed us to utilize our partnerships with the Student 
Conservation Association and other entities to expand youth engagement 
through the Recovery Act. We are using Recovery Act funding for youth 
partnerships that will launch our 21st Century Youth Conservation Corps 
initiative. This initiative will build capacity to engage young people 
in the outdoors and create a lasting interest in our treasured 
landscapes and cultural history. I have established an Office for Youth 
Programs to improve the coordination of Bureau educational and outreach 
activities in order to seize this opportunity to invite our children 
and young adults into the outdoors.
    My first 134 days sets the stage for the future of this Department, 
and our 2010 budget gives us optimism about the days ahead and our 
ability to fulfill our bold agenda.
                      overview of the 2010 budget
    The 2010 Interior budget request for current appropriations is 
$12.1 billion, $802 million or 7.1 percent above the level enacted by 
Congress for 2009. This comparison excludes $3 billion enacted in the 
American Recovery and Reinvestment Act of 2009. Permanent funding that 
becomes available as a result of existing legislation, without further 
action by the Congress, will provide an additional $6.1 billion, 
providing a total of $18.2 billion for Interior in 2010.
    The 2010 request includes $11 billion for programs funded by this 
subcommittee. This is an increase of $857 million above the level 
enacted for 2009. This comparison excludes $2 billion in enacted 
Recovery funding and $50 million requested by the President in 2009 
supplemental funds for wildland fire. About 19 percent of the 2010 
increase or $160.8 million will fully fund anticipated increases for 
pay, health benefits, unemployment and workers compensation, and other 
fixed costs.
    In 2010, Interior will continue an exemplary record of producing 
revenue for the American taxpayer. The estimate for revenue collections 
by the Department in 2010 is $14 billion, which exceeds the amount 
requested for current appropriations.
    The 2010 budget assumes the enactment of legislative initiatives to 
ensure better management of and a fair return for leasing on Federal 
lands and waters. These initiatives include a new fee on nonproducing 
Gulf of Mexico offshore oil and gas leases to encourage timely domestic 
energy development, repeal of oil and gas and geothermal mandatory 
spending authorizations included in the Energy Policy Act of 2005, and 
discontinuation of Abandoned Mine Land (AML) payments to certified 
States and tribes.
    The budget also anticipates increased revenues will be available 
beginning in 2010 from oil and gas royalty reform, a new fee for 
offshore facility inspections, and a fee for processing onshore oil and 
gas applications. I hope to be able to work closely with you on the 
consideration of these proposals in the budget.
                     creating a new energy frontier
    The energy challenges the United States faces are severe. The 
Nation has seen $4.00 per gallon gasoline and rising electricity costs. 
The Nation imports about 57 percent of the oil needed to fuel the 
country's transportation system, heat homes, and power the economy. The 
time has come to create new, clean sources of energy using the Nation's 
vast domestic resources. The President has a vision of energy 
independence driven by concerns about national security, economic 
security, and environmental health. His plan will steer the country 
onto a new energy path--one that creates new jobs and puts America out 
front in new, growing industries; one that promotes investment and 
innovation here at home; and one that makes responsible use of domestic 
resources.
    On Earth Day, the President announced the completion of new 
regulations for the development of renewable energy resources on the 
OCS. In addition, I recently reached agreement with Federal Energy 
Regulatory Commission Chairman Jon Wellinghoff on an approach to 
manage, permit, and issue licenses for hydrokinetic energy projects 
(e.g., wave or current energy projects) in offshore waters. These 
actions are setting in motion our collaborative efforts with the 
Federal Energy Regulatory Commission and others to create new 
opportunities for the production of wind, wave, and solar energy 
offshore.
    Renewable Energy.--Through its stewardship responsibilities, 
Interior is uniquely positioned to help achieve the President's vision 
of a clean and independent energy future. The BLM has identified about 
21 million acres of public land with high wind energy potential in the 
11 Western States and about 29 million acres with high solar energy 
potential in the 6 Southwestern States. There are also 140 million 
acres of public land in Western States and Alaska that have significant 
geothermal resource potential. In addition, there is considerable wind 
and wave energy potential offshore. The National Renewable Energy 
Laboratory has identified more than 1,000 gigawatts of wind potential 
off the Atlantic coast, and more than 900 gigawatts of wind potential 
off the Pacific coast.
    The 2010 budget request includes $50.1 million to invest in 
renewable energy development on Interior public lands and waters. 
Through this initiative, we will engage the combined talents of the 
Department's bureaus: facilitating the development of renewable energy 
on public lands, developing a robust OCS renewable energy program, and 
using science to identify areas with the highest potential for 
responsible energy production on public and tribal lands. We will do 
all of this in a manner that respects our treasured landscapes and 
protects the natural and cultural values of the lands and resources 
that we manage.
    The BLM and BIA will facilitate development of renewable energy 
sources such as wind, solar, and geothermal energy on public and tribal 
lands, and will address the siting challenges associated with building 
a new transmission infrastructure. The 2010 request for the BLM 
proposes an increase of $16.1 million to leverage Recovery Act funds 
and build a capacity to address anticipated needs for renewable energy 
and transmission development on the public lands. The Bureau of Indian 
Affairs (BIA) economic development program will support the informed 
development of renewable energy resources on tribal lands with an 
increase of $4 million.
    The budget for the Minerals Management Service (MMS) includes an 
increase of $24 million to begin a program for renewable energy on the 
OCS. The MMS will conduct environmental and technological studies and 
prepare environmental analyses to develop competitive renewable energy 
lease sales, and issue and monitor leases for individual projects.
    With an increase of $3 million, USGS will develop scientific 
information on the distribution of renewable energy resources, 
including geothermal, biomass, wind, and solar to ensure 
environmentally sensitive development. An increase of $3 million for 
the Fish and Wildlife Service (FWS) consultation program will assure 
that renewable energy facilities are developed with careful attention 
to the stewardship of natural resources.
    Conventional Energy.--The administration's energy strategy includes 
the continued development and, where appropriate, expansion of domestic 
production of oil and gas and other mineral resources. The 2010 budget 
request includes increases of $16.9 million for BLM and MMS to continue 
programs that support 30 percent of the domestic energy production in 
the United States. The MMS will support the development of conventional 
energy resources with an increase of $5 million to facilitate continued 
oil and gas leasing. The budget for the BLM maintains the Bureau's 
capacity to process oil and gas applications for permits to drill 
through an increase of $11.9 million in appropriations and a proposed 
increase of $9.1 million in permit fee collections. These increases 
offset 2010 reductions in mandatory spending from rental revenues 
previously supporting these activities.
    Audit and Compliance.--The budget request includes funding in three 
bureaus to improve revenue collection and oversight activities, needs 
identified by the Government Accountability Office, the Department's 
Office of Inspector General, and other independent reviewers. The MMS 
budget includes $1.7 million to provide timely and accurate production 
and gas plant accountability data and $3 million to implement a risk-
based audit and compliance protocol. There is an additional $2.5 
million requested for BLM's oil and gas management program to enhance 
production verification capabilities; and $1 million is requested in 
BIA to establish standards for renewable energy development.
                        tackling climate impacts
    Inextricably linked with the need for a clean energy future is the 
need to tackle climate change impacts. With lands that range from the 
Arctic to the Everglades, Interior's managers observe the sometimes 
dramatic effects of a changing climate, including thawing permafrost 
and melting glaciers, changes in precipitation patterns, and sea level 
rise. In this dynamic context, Interior managers need information, 
tools, and resources to measure, understand, and respond to on-the-
ground impacts. As the largest land manager in the Nation, Interior is 
positioned to pioneer adaptive management approaches to address the 
effects of climate change.
    In April of this year, the United States Geological Service (USGS) 
released a report prepared in close collaboration with the British 
Antarctic Survey indicating that Antarctica's glaciers are melting more 
rapidly than previously known because of climate change. The USGS study 
documents for the first time that one ice shelf has completely 
disappeared and another has lost a chunk three times the size of Rhode 
Island. This research is part of a larger ongoing project that is 
studying the entire Antarctic coastline.
    This study provides the first insight into the extent of 
Antarctica's coastal and glacier change. The rapid retreat of glaciers 
demonstrates the profound effects our planet is experiencing, with 
rates of change occurring more rapidly than previously known, as a 
consequence of climate change. The scientific work of USGS combined 
with the Department's on-the-ground resource management programs and 
States and tribes, are a critical component in the administration's 
commitment to combat climate impacts.
    The 2010 budget request for the Department includes increases 
totaling $133 million to address the impacts of climate change on land, 
water, and wildlife resources. The climate impacts initiative 
integrates the activities of the BLM, USGS, FWS, NPS, and BIA to 
measure and monitor climate-induced change and share information with 
State, tribal, and other managers and to formulate strategies to 
protect wildlife and habitats through adaptive resource management. The 
budget increase will allow the Bureaus to work collaboratively to 
expand capability in climate impact science, adaptive management 
techniques, and carbon sequestration.
    Monitoring Networks and Adaptive Strategies.--Interior's climate 
impacts initiative includes $65 million to establish a strong 
monitoring network that will comprehensively track and provide 
information on climate impacts on land, water, and wildlife resources 
and to develop adaptation strategies for improved management. The BLM, 
USGS, FWS, and NPS will work together to develop scientific data about 
climate-induced changes that are occurring and those that are predicted 
to occur, and then translate this scientific input into on-the-ground 
strategies for land and water managers.
    The majority, $80 million or 60 percent, of funding proposed for 
the Climate Impacts Initiative is within the 2010 request for the FWS. 
This includes two components: $40 million for grants to States and 
tribes, provided through the FWS State and Tribal Wildlife Grants 
program, and $40 million to tackle climate impacts on refuges, 
fisheries, and other resources.
    The State and Tribal Wildlife Grants component will assist with 
planning and implementing strategies, and activities to help fish and 
wildlife adapt to the impacts of climate change. The FWS climate impact 
component includes: $20 million in the Resource Management account to 
obtain the information needed to plan and deliver conservation 
activities that address the impacts of climate change on fish and 
wildlife and Their habitat. Biological planning, conservation design, 
and monitoring will be important in formulating our response to help 
wildlife adapt. FWS will use $12 million to plan, monitor, and 
implement climate change related adaptive management strategies on 
refuge lands and another $6 million to help fish and wildlife adapt to 
the impacts of climate change on private lands. Additionally, $2 
million will be used, through the National Fish Habitat Action Plan, to 
help freshwater fish and other aquatic species adapt.
    Additional increases for the Bureau of Land Management ($15 
million), the National Park Service ($10 million), and the BIA ($6 
million) will support resource assessment, monitoring, habitat 
restoration and climate impact mitigation efforts.
    Climate Impact Science.--The 2010 USGS budget includes an increase 
of $15 million within the Climate Impacts initiative for scientific 
research, forecasting, and modeling activities to better assess climate 
change impacts on national resources and develop response strategies. 
This funding will also expand priority climate change monitoring, 
develop regional collaborative research hubs through the National 
Climate Change and Wildlife Science Center, and collaborate on climate 
impact science.
    Carbon Sequestration.--Forest and rangelands, wetlands, and other 
landscapes managed by the Interior Department play a vital role in the 
carbon cycle. These natural systems soak up carbon dioxide and thereby 
reduce the harmful effects that carbon dioxide and other heat-trapping 
gases can otherwise cause. This absorptive capacity of our landscapes 
has played a key role in reducing the negative impacts of climate 
change. The Department's bureaus will enhance the absorptive capacity 
of lands by engaging in more aggressive re-vegetation and tree planting 
strategies, ecosystem restoration, wetland protection, and similar 
strategies, to enhance the carbon cleansing capability of natural 
systems.
    The 2010 budget includes an increase of $7 million for USGS to 
research both geological and biological carbon sequestration potential. 
In 2010, with the completion of its 12-month project to develop the 
appropriate methodology, USGS will begin the initial stages of a 
national assessment of geologic sequestration of carbon dioxide in 
saline formations and depleted oil and gas reservoirs. With this new 
funding, USGS will also develop methodologies to measure and assess 
biological carbon sequestration.
    A key aspect of climate impacts, particularly in the West, is 
increased variability of water supplies. Although the Bureau of 
Reclamation (BOR) is not within the jurisdiction of this subcommittee, 
the Bureau's water conservation, water basin studies and water 
recycling and reuse activities are an important complement to the 
Department's climate impacts initiative. The 2010 budget increases 
water conservation challenge grants by $26 million. The 2010 budget for 
the BOR also requests $64 million for 7 ongoing authorized BOR rural 
water projects that will help bring reliable water supplies to tribal 
and nontribal populations.
                    protecting treasured landscapes
    In the spirit of the bold, visionary actions that President 
Theodore Roosevelt took when he established the first National Wildlife 
Refuge at Pelican Island, Florida, and developed a framework for the 
National Park System, President Obama is committed to the preservation 
of landscapes in parks, refuges, and other public lands. President 
Obama signed the Omnibus Public Land Management Act of 2009 on March 20 
and began a new era in land management with new, organic legislation 
for BLM's National Landscape Conservation System. This landmark 
legislation added 2 million acres of new wilderness and preserved 1,000 
miles of wild and scenic rivers. This act will allow us to protect some 
of America's most special places and is a wonderful addition to the 
legacy of treasured landscapes that we already manage.
    The 2010 President's budget signals this commitment with an 
unprecedented $2.3 billion for park operations, a program increase of 
$100 million above 2009 enacted levels. Funding will be focused on 
three key areas: building a solid foundation for parks, caring for 
America's treasures, and enhancing leadership in parks. Included in the 
operations funding increase is $57.5 million for park base funding. 
These funds will be used to enhance core visitor services and resource 
protection needs at 212 parks. An additional $21.7 million will be used 
to enhance major procurement and contracting services in parks, 
increase officer and civilian staffing in the United States Park 
Police, and build organizational capacity to better serve customers and 
recruit a new and diverse workforce.
    NPS has a long and impressive history of caring for America's 
natural and historic treasures and ensuring their continued 
appreciation, understanding and enjoyment. Today, as NPS readies itself 
for the next 100 years, efforts are underway to face a new set of 
challenges. The 2010 NPS budget request includes an additional $5 
million to enhance youth environmental education, vocation, and 
volunteer service opportunities through the Department's 21st Center 
Youth Conservation Corps initiative; $10 million to monitor, adaptively 
manage, and assess the impacts of climate change on park resources as a 
part of the climate impacts initiative; $4.9 million to enhance 
critical stewardship programs at parks through research, operational, 
and educational activities; $2.2 million to expand emergency storm 
damage response capability; and $150,000 to enhance visitor health and 
safety programs.
    The 2010 budget includes $3.9 million to address one of the long-
term challenges facing NPS--the need to develop a workforce that 
reflects the changing and diverse face of America and demonstrates 
management excellence. The budget funds training for new 
superintendents and establishes a new leadership development program 
open to all employees to equip NPS managers with the skills to recruit 
and manage a diverse workforce.
    Park Partnerships.--The 2010 budget recognizes the strong American 
tradition of philanthropy for National Parks and includes $25 million 
for Park Partnership Project Grants. The combined benefit to the NPS 
would be over $50 million for signature projects or programs. This 
proposal mirrors the action that this subcommittee took in 2008 to fund 
programs and projects that will leave a lasting legacy for future 
generations.
    Any discussion of partnerships should recognize the achievements of 
our park superintendents and other land managers who work 
collaboratively with adjacent landowners, cooperating associations, 
other Federal agencies, State and local governments, and the 
communities in which they are situated. The Department recently lost 
one of its staunchest advocates for partnerships and someone who 
recognized the importance of parks as key elements of livable 
communities. Brian O'Neill served as the Superintendent of the Golden 
Gate National Recreation Area for 23 years. His vision ledto the 
realization of this diverse and creative park unit that hosts 200,000 
volunteers, the largest number of volunteer workers of any park in the 
world. Brian's leadership resulted in the successful creation of the 
Presidio partnership and turned Alcatraz from a decrepit former prison 
into a much visited tourist destination. Brian died on May 13, 2009, 
leaving a world-class legacy for future generations and models for 
partnerships that are being replicated throughout the country and the 
world.
    Investing in the Land and Water Conservation Fund.--Recognizing the 
importance of America's natural and recreational resources, in 1962 the 
Kennedy administration introduced legislation to establish a new 
Federal conservation fund. The next year, Kennedy repeated the 
proposal, writing to Congress, ``Actions deferred are all too often 
opportunities lost, particularly in safeguarding our natural 
resources.'' In 1964, Congress created the Land and Water Conservation 
Fund to conserve, develop, and utilize outdoor recreation resources for 
the benefit and enjoyment of the American people.
    The law sought to accomplish these goals by providing funds for 
acquisition and development of lands and by providing Federal 
assistance to States in recreation planning, acquiring lands and 
waters, and development of recreation facilities. These activities are 
funded through a trust fund that receives revenues primarily generated 
from OCS oil and gas drilling activities. Other funding sources include 
the sale of surplus Federal real property and taxes on motorboat fuel. 
The annual authorized level is $900 million; appropriations have been 
provided at this level only twice during the program's 45-year history. 
Over the life of the program, 7 million acres have been purchased with 
LWCF appropriations. More than 41,000 matching grants to State and 
local governments have been approved for acquisition, development, and 
planning of outdoor recreation opportunities in the United States.
    President Obama has a goal to fully fund the LWCF at $900 million 
annually by 2014. The 2010 President's budget includes $419.9 million, 
an increase of $115.8 million, as a first step toward achieving this 
goal. The 2010 budget includes $300.2 million for Interior LWCF 
programs and $119.7 million for the Forest Service. Within the Interior 
total is $170.2 million, an increase of $59.7 million, for protection 
of treasured landscapes.
    The 2010 request includes $30 million to assist States and local 
and tribal governments to protect and create park lands, open space, 
and wildlife habitat through competitively awarded LWCF grants. This is 
an increase of $11 million over the 2009 enacted level of $19 million. 
The 2010 budget request includes $27.2 million for grants and $2.8 
million for administration. An additional $10 million in State 
conservation grants is available from the LWCF in mandatory 
appropriations.
    The 2010 budget request includes $100 million, an increase of $24.5 
million over 2009, for the Cooperative Endangered Species Conservation 
Fund. This program provides grants to States for activities that 
conserve threatened and endangered species. States can, in turn, pass 
the funding on to municipalities, tribes, and private landowners to 
enlist their support in species conservation efforts.
            creating a 21st century youth conservation corps
    The future of resource conservation and management on the public 
lands depends upon the next generation's understanding of the 
importance of natural resources and cultural treasures. The 2010 budget 
includes a 21st Century Youth Conservation Corps initiative to signal a 
new emphasis on youth involvement. An Educating Young Hunters and 
Anglers component of the initiative addresses the President's Rural 
Agenda item to support the rights and traditions of sportsmen. The 21st 
Century Youth Conservation Corps initiative leverages the expansion of 
youth partnerships undertaken with Recovery Act funding and the 
creation of a new office to coordinate youth programs.
    The budget includes $50 million to develop new ways to engage youth 
and under represented groups in nature and help them to achieve 
environmental awareness and respect for America's exceptional natural 
resources. The initiative has two distinct components--educating young 
hunters and anglers and an environmental education component that will 
engage and encourage youth in environmental conservation and to seek 
careers in America's great outdoors.
    Educating Young Hunters and Anglers.--In support of the President's 
efforts to educate young hunters and anglers, the budget request 
includes $28 million for a new discretionary Federal Aid in Wildlife 
grants program to help States, territories, and tribes establish new, 
creative programs to engage young hunters, anglers, and wildlife 
managers. Special emphasis will be placed on under-represented groups. 
Included within the request is $2.8 million targeted specifically for 
grants to tribes.
    The 2010 budget request includes an increase of $1 million for the 
National Fish and Wildlife Foundation to establish a public-private 
partnership to promote these efforts. Another $1 million is included in 
the budget for the National Conservation and Training Center to provide 
workshops and other training to develop the capacity of Federal, State, 
and tribal agencies to develop new and creative methods to increase 
interest in hunting, fishing, and other wildlife management.
    21st Century Youth Conservation Corps.--Studies show that vast 
numbers of children spend much of their lives indoors playing video 
games or watching television, with little contact, understanding or 
appreciation of the natural world. A large body of evidence attributes 
improved health, particularly in youth, to nature and exposure to the 
natural environment. Childhood experiences with nature are associated 
with increased environmental awareness. An investment of $20 million 
will be made in BLM, USGS, FWS, and NPS to promote youth engagement and 
environmental awareness. Specifically, the 2010 budget identifies a 
three-pronged approach: engage youth in public service; enhance 
science-based programs offered through schools and community partners; 
and improve curricula of national environmental education programs. In 
addition to promoting health and environmental awareness, these 
resources will support efforts to develop an interest among talented 
and capable young people in entering public service as natural resource 
professionals.
                       empowering indian country
    President Obama has placed a high priority on restoring the 
Government-to-government relationship with Indian tribes. Restoring the 
relationship requires a commitment to helping Indian communities 
prosper, and the 2010 budget provides increased resources that will 
support this commitment. The 2010 budget provides increases totaling 
$102 million to strengthen law enforcement and provide expanded 
educational opportunities in the BIE school system and through tribal 
colleges and universities. The 2010 budget also funds enacted Indian 
Water Rights Settlements with an increase of $25.8 million.
    Protecting Indian Country.--The 2010 budget advances efforts to 
improve safety in Indian country with a comprehensive request to 
promote law enforcement. The 2010 budget for BIA makes new investments 
in officers on the street, specialized training, detention centers, and 
tribal courts. The 2010 proposal builds on the congressional support 
provided in 2008 and 2009, and provides an additional $30 million in 
program funding.
    The largest component of this initiative is an increase of $10.5 
million to aggressively address law enforcement staffing needs 
throughout Indian country. The additional funding will strengthen the 
law enforcement presence on Indian reservations by hiring additional 
officers. In order to meet the demand for these new officers, BIA must 
also expand its training capabilities. The budget includes $500,000 to 
establish the Indian Police Academy outreach program.
    One of the biggest challenges for Indian Affairs has been managing 
the individuals arrested as a result of increased officers and 
increased arrests. The initiative proposes $70.4 million for the 
corrections program, including an increase of $5.0 million to fund 
additional correctional officers, contracted bed space for prisoners, 
and an armed transport officer program. The initiative also includes an 
increase of $2 million above the 2009 enacted level of $6.3 million to 
specifically target the drug trade and reduce violent crime. This 
funding will advance intelligence gathering capabilities and provide 
additional support for victim and witness services.
    Another important component of the Indian Affairs justice system is 
the tribal courts program and sustained support for oversight and 
management. The initiative includes an increase of $8 million to 
improve the efficiency and operations of tribal courts and $4 million 
for the management functions.
    Advancing Indian Education.--The 2010 advancing indian education 
initiative will sustain $716.2 million enacted in 2009, and provides an 
additional increase of $72 million for education programs.
    The 2010 request of $391.7 million for the Indian Student 
Equalization Program formula funds includes an increase of $6.7 million 
in teacher pay to fund fixed costs and a $10 million program increase. 
These funds are one of the primary sources of funding for the BIE's 169 
elementary and secondary schools and 14 dormitories. Funds directly 
support schools for core operating costs, such as salaries for 
teachers, aides, administrators, support staff, and supplies and 
classroom materials. The 2010 request also includes $59.4 million for 
operation of elementary and secondary school facilities, an increase of 
$2 million above the 2009 enacted level. The program funds operational 
expenses for educational facilities at all 183 BIE schools and 
dormitories.
    The BIE is committed to assist Indian students to attain 
postsecondary educational credentials. The BIE administers operating 
grants for tribally operated colleges and universities. Included in 
this request is $64.3 million for tribal colleges and universities, an 
increase of $5 million over the 2009 enacted level. The budget also 
includes a one-time increase of $50 million to forward fund activities 
at tribal colleges and universities for the 2010-2011 school year. 
Tribal college leaders have repeatedly stated that forward funding 
provides them greater financial security to plan for the academic year. 
It is a budgeting technique widely used at educational institutions, 
including the BIE elementary and secondary school system.
    The initiative includes $34.6 million for Scholarships and Adult 
Education, $5 million above the 2009 enacted level. This funding not 
only improves opportunities for American Indians and Alaska Natives to 
attain an advanced education, it directly supports the spirit and 
intent of Indian self-determination by providing the tools to shape 
their future.
    Resolving Land and Water Claims.--The Omnibus Public Land 
Management Act of 2009 included two major Indian Water Rights 
settlements. The Northwestern New Mexico Rural Water Projects Act 
authorizes settlement of the longtime water rights claims of the Navajo 
Nation in the San Juan Basin in New Mexico. The 2010 budget includes $6 
million for this settlement.
    The Shoshone-Paiute Tribes of the Duck Valley Reservation Water 
Rights Settlement reached after a decade of negotiations, resolves 
tribal surface and groundwater claims in Nevada and establishes trust 
funds for the tribes to put water to use. The 2010 budget includes $12 
million for this settlement.
                           budget priorities
    Wetlands.--In April, we celebrated American Wetlands Month, 
recognizing the importance of wetlands for economic and environmental 
well being. Wetlands are among the most productive habitats on Earth, 
providing shelter and nursery areas for commercially and recreationally 
important animals like fish and shellfish, as well as vital wintering 
grounds for migratory birds. The 2010 budget fulfills President Obama's 
commitment for wetlands preservation with an increase of $10 million 
for the North American Wetlands Conservation Fund. This increase will 
be leveraged with matching funds from partners and will protect an 
additional 45,000 acres of wetlands and associated uplands and enhance 
15,000 acres of habitat.
    Great Lakes Restoration.--The 2010 budget for the Environmental 
Protection Agency (EPA) includes a $475 million Great Lakes Restoration 
initiative. The initiative will fund a broad-based strategy to restore 
the Great Lakes in support of the President's pledge for a 
comprehensive approach to Great Lakes restoration. Working in concert 
with its Federal partners on the Great Lakes Interagency Task Force, 
EPA has identified a series of projects that will begin in 2010. EPA 
will transfer funds to Interior bureaus and other Federal agencies for 
projects that will be undertaken to target the most significant 
problems in the Great Lakes ecosystem and will demonstrate measurable 
results. EPA's 2010 request estimates funding of $15 million for USGS, 
$57.5 million for FWS, $10.5 million for NPS, and $3 million for BIA. 
Interior will use this funding to restore habitats that are important 
to the health of the Great Lakes region including wetlands, islands, 
and tributaries. Cooperative projects will be funded to combat invasive 
species, conduct scientific research to identify threats to the region, 
and develop mitigation strategies.
    Endangered Species.--As part of the 2010 budget's investments in 
the Land and Water Conservation Fund, there is an increase of $24.5 
million requested for grants to States in the FWS Cooperative 
Endangered Species Conservation Fund. This infusion of funding will 
support expanded protections for threatened and endangered species and 
help States and others with support to help reduce threats and recover 
species. The 2010 budget also includes increases of $7.4 million for 
FWS and USGS to increase population assessments, research, and 
conservation planning and actions for the polar bear and other Arctic 
species.
    Land Management.--The 2010 budget for land management operations 
reflects an increase of 7.6 percent over the level provided by the 
Congress in 2009. This request includes funding for fixed costs and 
increases to address current challenges in energy and climate impacts, 
and to improve the engagement of youth. Sustaining the operational 
budgets are key to our ongoing stewardship capacity. Within the 
operating accounts, the 2010 budget retains an increase of $7.5 million 
for BLM to accelerate inventory and remediation of abandoned hardrock 
mine sites and retains increases of $8.7 million provided to BLM, NPS, 
and the Office of the Secretary for a coordinated effort to eradicate 
drug production and related activities on public lands.
    Wild Horse and Burro Management.--The BLM manages wild horses and 
burros under the Wild Free-Roaming Horses and Burros Act, a 1971 law 
that sets forth certain protections for the animals and guides the 
BLM's management of the horse and burro populations. The 2010 budget 
includes $67.5 million, a program increase of $26.5 million over the 
2009 level, for the Wild Horse and Burro Management program. This 
significant funding increase is needed to fund increases in the costs 
to hold horses that have been removed from the range, to fund ongoing 
gathers to manage the population on the range, and to more aggressively 
implement population control efforts to help slow the growth in wild 
horse populations. We look forward to working with the subcommittee on 
a long-term solution for effective management of these populations--one 
that will allow us to operate a less costly program.
    Wildland Fire Management.--The Department's Wildland Fire program 
works collaboratively with the Forest Service to conduct effective and 
cost-efficient fire preparedness, suppression, hazardous fuels 
reduction, and other prevention activities in support of the National 
Fire Plan. Wildland fire management activities are conducted by four 
Interior bureaus including BLM, FWS, NPS, and BIA. The 2010 budget 
request of $899.8 million for Wildland Fire Management includes an 
increase of $34.6 million in Suppression Operations to fully fund the 
10-year average cost of $369.8 million. In addition, the budget 
establishes a new discretionary Wildland Fire Contingency Reserve Fund 
of $75 million for fighting catastrophic wildfires, which would be 
available after the appropriated 10-year average is exhausted and other 
specific objectives are met.
    Working Capital Fund.--The Department's 2010 budget request 
includes funding for continued deployment of an integrated business 
management system that will be used by all bureaus and offices. The 
2010 budget of $85.8 million for the Working Capital Fund is an 
increase of $12.4 million above the 2009 enacted level. Of this amount, 
$80.4 million is included to fund continued development and deployment 
of the Financial and Business Management System, an increase of $7 
million over the 2009 enacted level. This includes funding to support 
bureau efforts in preparing for deployment and transitioning to the new 
system. The budget also includes $5.4 million for costs associated with 
enterprise wide information technology enhancement requirements, which 
are needed to support investments for improved transparency and 
accountability.
                legislative and administrative proposals
    The 2010 budget request is accompanied by proposals that will 
affect receipt or spending levels in 2010 or in future years. These 
proposals will be transmitted separately from the budget for 
consideration by congressional authorizing committees.
    Fee on Nonproducing Leases.--To further encourage timely domestic 
energy development, the administration will submit legislation to 
impose a new fee on nonproducing oil and gas leases in the Gulf of 
Mexico. This new fee would provide a financial incentive for oil and 
gas companies to either move leases into production or relinquish them 
so that tracts can be re-leased and developed by new parties. The 
proposal would require holders of Gulf of Mexico OCS oil and gas leases 
to pay a $4 per acre fee when leases are in nonproducing status.
    Payments to Certified States and Tribes.--The budget proposes to 
discontinue mandatory payments from the General Treasury to States and 
tribes that have certified as completing the reclamation of their 
abandoned coal mine sites. Because payments to certified States and 
tribes can be used for any purpose approved by the State legislatures 
or tribal councils, they do not contribute to the intended purpose of 
the AML program, to reclaim abandoned coal mines. This proposal would 
not affect payments to States that have not yet certified that 
abandoned coal mines have been reclaimed.
    Energy Policy Act.--The administration will submit legislation to 
repeal portions of section 365 of the Energy Policy Act, which diverted 
mineral leasing receipts from the Treasury to a BLM Permit Processing 
Improvement Fund and prohibited BLM from establishing cost recovery 
fees for processing applications for oil and gas permits to drill. Upon 
repeal of these provisions, BLM will establish fees for applications 
for permits to drill through a rulemaking process. Until these fees can 
be put in place, the budget assumes that for 2010, a permit processing 
fee will continue to be charged through an appropriations provision, 
consistent with Congress' practice for 2008 and 2009.
    Geothermal Implementation Fund and Payments to Counties.--The 
administration will submit legislation to repeal sections 224(b) and 
234 of the Energy Policy Act of 2005. Prior to passage of the Energy 
Policy Act, geothermal lease payments were split 50-50 between the 
Federal Government and States, with 50 percent directed to States, 40 
percent to the Reclamation Fund, and 10 percent to the General Fund. 
The Energy Policy Act changed this distribution to direct 50 percent to 
States, 25 percent to counties, and 25 percent to a new Geothermal 
Steam Act Implementation Fund. The repeal of sections 224(b) and 234 
will reverse these changes and restore the disposition of the 
geothermal revenue to the historical formula of 50 percent to the 
States and 50 percent to the Treasury.
    Compact with Palau.--The Office of Insular Affairs and the 
Department of State are currently engaged in an inter-agency review of 
the Compact of Free Association with the Republic of Palau. Permanent 
and indefinite funding for Palau will expire at the end of 2009. The 
inter-agency group is weighing the value of this request against the 
United States' interests. Palau has a strong track record of supporting 
the United States in the United Nations, and its location is 
strategically linked to Guam and United States operations in Kwajalein 
Atoll. The budget assumes a placeholder of $7 million in 2010 in 
recognition of these negotiations.
    The budget also assumes implementation of proposals that will 
result in increased revenue, which in some cases offset the costs of 
operations.
    Royalty Reform.--The Department is initiating a comprehensive 
review, not requiring legislation, of oil and gas leasing and royalty 
policies to consider and evaluate a range of reform options that would 
have the effect of both assuring a fair return to the American taxpayer 
and encouraging diligent development of future leases. As part of this 
review, the Department will consider the recommendations of a recent 
Government Accountability Office report that urges the Department to 
consider alternative leasing and royalty practices, such as those 
utilized by States and private landowners. Upon completion of this 
review, the Department will move forward to implement a rulemaking. The 
budget assumes these reforms will increase revenues to the Treasury by 
$1.5 billion over 10 years.
    Offshore Facility Inspection Fee.--Through appropriations language, 
the Interior department proposes to implement an inspection fee in 2010 
for each above-water OCS oil and gas facility, except mobile offshore 
drilling units, that is subject to inspection by MMS. The proposed 
inspection fee is tiered based on the number of wells per facility and 
would support Federal efforts to provide services that not only ensure 
human safety, but also protect the environment and conserve energy and 
marine resources. The budget assumes these fees will total $10 million 
in 2010.
    Application for Permits To Drill (APD).--The 2010 budget assesses 
an APD fee through appropriations language, an approach taken by 
Congress in the 2009 Appropriations Act. The 2010 budget proposes to 
raise the fee from $4,000 to $6,500 per APD, which would generate an 
estimated $45.5 million in offsetting collections, an increase of $9.1 
million over the 2009 estimate. This increase in offsetting 
collections, combined with a requested increase of $11.9 million in 
discretionary appropriations for the Oil and Gas Management program, 
will fully offset the proposed cancellation of the mandatory spending, 
thereby maintaining BLM's current capacity for processing APDs and 
other use authorizations.
    In total, these proposals are expected to generate over $300 
million in 2010 revenues that help to reduce the overall cost of 
Interior's programs. The 2010 budget also proposes over $300 million in 
cost savings resulting from the completion of one-time projects, 
elimination of funding for earmarks, and reductions to lower priority 
programs.
                               conclusion
    Thank you for the opportunity to testify on behalf of the 
President's 2010 budget request for the Department of the Interior. I 
want to reiterate my appreciation for the longstanding support of this 
subcommittee. We have a tremendous opportunity to improve the future 
for our children and grandchildren with wise investments in clean 
energy, climate impacts, treasured landscapes, our youth, and the 
empowerment of Native Americans. I look forward to working with you to 
implement this budget. This concludes my written statement. I am happy 
to answer any questions that you may have.

    Senator Feinstein. Thank you very much, Mr. Secretary.

                    DRUG CULTIVATION ON PUBLIC LANDS

    I would like to begin with a subject and that is drugs on 
public lands. One of the things that has happened is that the 
cartels are extending their influence up from Mexico, running 
Mexican nationals in our National Parks and some of our State 
parks. As a matter of fact, 70 percent of the marijuana found 
is really in either Federal or State parks. It is a very real 
and growing danger.
    Last year, as part of the appropriations bill, I added $5.1 
million to the BLM budget and $3.3 million to the National Park 
Service budget so those agencies could gear up and begin a 
coordinated effort with the Forest Service and the DEA.
    Now Congress was late in passing the omnibus bill. So the 
2009 money, I understand, is just making its way out into the 
field. Can you tell us what BLM and the Park Service will do 
with these funds?
    Secretary Salazar. Senator Feinstein, you put your finger 
on a law enforcement issue that needs to be addressed. We will 
hire additional law enforcement officers with the money made 
available through last year's budget, as well as this year's 
budget, to help deal with the eradication of marijuana and drug 
interdiction not only on the border, but as well as on our 
other public lands.
    It is interesting to note that when you think about the 
Department of the Interior, sometimes people don't recognize 
the fact that we essentially have responsibility for 793 miles 
of the border between the United States and Mexico. We also 
have responsibility for great stretches of the border between 
Canada and the United States. Our law enforcement officers, 
working with the Bureau of Land Management, working with the 
BIA, are often in the midst of dealing with many of these 
issues.
    We had a National Park ranger who was killed several years 
ago involving some of the drug activity on the border. It is an 
issue which I will take seriously. It is an issue which I will 
work on with the Departments of Justice and Homeland Security 
to try to develop a coordinated effort to address these issues.
    Senator Feinstein. Yes. I just want to make the point. This 
marijuana growing is not benign. These are Mexican nationals. 
They are armed, and they are very dangerous.
    And what I am most interested in and put the money in is 
for your participation in the joint task force to go in and 
clean this stuff out of our parks and keep it that way.
    Now let me ask you, would you confirm that those funds are 
figured into your base budget in 2010?
    Secretary Salazar. Yes.
    Senator Feinstein. Okay. Now how soon do you anticipate 
that you will be up and running and participating in future 
raids with DEA and the Forest Service?
    Secretary Salazar. Senator Feinstein, we are working on a 
number of law enforcement issues within the Department of the 
Interior, some of which I can talk about, some of which I can't 
yet talk about. We will be focused on this issue as soon as we 
can, and part of what we are trying to do is to get the 
Department of the Interior stood up. And that means bringing in 
the people that can make sure that we are carrying out the 
requirements and the suggestions that we are getting from you 
on these very important issues.
    Last week, we started making some progress. We need to make 
some more progress to get it done.
    Senator Feinstein. I just want you to know that this money 
is there with the view that you will, in fact, participate in 
these raids. They have been dormant as of late, and this 
concerns me.
    Secretary Salazar. I can only tell you that we will be 
working on it. I was attorney general of my State for 6 years. 
I support law enforcement in many different ways, and this will 
be a high priority for me.

                            RENEWABLE ENERGY

    Senator Feinstein. Okay. Good. All right. Because I will 
come back and back and back.
    Your budget proposes $50 million for activities designed to 
increase the use of renewable energy. Of that, $16 million 
would go to the Bureau of Land Management so they can expedite 
200 solar projects and 240 wind projects out West. More than 
130 of those are in California.
    I spoke to you in person about this. As you know, I was the 
author of the Desert Protection Act, which created the Joshua 
Tree, Death Valley National Parks and the Mojave Preserve. For 
about 6 years in the 1990s, we raised private money, namely $40 
million, and some Federal money, $17 million, to go in and buy 
600,000 acres of in holdings held by Catellus.
    Well, one day, somebody comes in to me and says, ``Do you 
know that they are putting solar troughs in these in-holdings 
that have been purchased for conservation?'' And I said, ``You 
are kidding?'' No advance notice.
    So I went down to the desert, and I visited about 8 
projects, and I find, in fact, not only are they proposed, but 
they are enormous in size--one 15 square miles, one 8 square 
miles, one 7 square miles, one 5 square miles, and on.
    Now these are huge solar troughs, big towers, fences, steam 
plants, and all of the infrastructure. If you have a 15 square 
mile facility, and this was the Bright Source proposal, I mean, 
that has a huge mark on land that we are trying to conserve.
    I have spoken with you about it. I want to raise it in the 
public because we are about ready to introduce a monument to 
protect these lands, and we have discussed it with everybody. 
We have amended it. I had the military in yesterday. I believe 
we are going to get some good solutions out of it.
    But I think this planning process really has to be looked 
at and the size has to be looked at because you would have an, 
oh, 20-mile corridor just filled with this stuff and way more 
than the 33 percent clean fuel requirement that California has 
to make its commitment by 2020. So I would like to know how you 
are handling these permits.
    The second point is, as we traveled through this area with 
the Wildlands Conservancy, they pointed out that there was 
private land in the area which really was much more suitable 
for use for this. You know, flat, not in areas that are in a 
conservation mode, et cetera.
    And the downside of that was I was told, well, the people 
that went for private land had to go to the back of the line, 
and the BLM land was at the front of the line. I don't believe 
that is the right approach. And it seems to me that--and I know 
the environmental studies are being done. And I guess what I 
objected to most was the inordinate size of these things, just 
enormous in terms of their scope and what they do to the land.
    And then the last point is at Daggett, we saw photovoltaic 
and a solar trough and the factories, but what had happened is 
the people running it had walked away from it and just left it 
all there. So that raises the point, much like abandoned mines, 
that these developers have to be responsible.
    And if they are going to leave, vacate the site, take their 
equipment with them because the site is essentially changed 
forever from the desert topography. It is leveled. Artificial 
surface is brought in. And I am for this, but I am for it in 
moderation with size that is limited so that it doesn't really 
become an enduring blight upon the land for miles and miles and 
miles.

                            RENEWABLE ENERGY

    Secretary Salazar. I appreciate your raising this issue 
with me from I think my very first days in the Department of 
the Interior, Senator Feinstein. It is an issue that we are 
very aware of with respect to the deserts of California and 
with respect to solar siting elsewhere around the Southwest and 
wind power throughout the country.
    What I can tell you is this, that as we move forward with 
turning the new page and developing solar and wind and 
geothermal energy, that we have to do it in a way that is 
thoughtful, that is not helter-skelter, that essentially makes 
sure that we are protecting the treasured landscapes of 
America.
    Going back to Senator Alexander's statement with respect to 
oil and gas development, we have to have that same kind of 
approach with respect to renewable energy projects. Right now, 
the 240 applications that you speak about, many of those 
applications were pending when I came into office. There was 
not any kind of significant planning process with respect to 
renewable energy in the Department of the Interior, frankly, 
because it had not been prioritized.
    And we are now moving forward with the Bureau of Land 
Management, with our other agencies, Fish and Wildlife and 
National Parks, to develop a process that essentially is no 
different than the kind of process, Senator Feinstein, that you 
used as mayor of the city of San Francisco. It is a land-use 
planning process.
    But you essentially take a look at the entire landscape 
relative to what the scientists will tell you are the 
technically possible developments for renewable energy. It 
doesn't mean that you are going to develop renewable energy in 
all of those spaces because many of them are inappropriate 
because of ecological values or other national interests that 
need to be protected. You have to go through a screening 
process to determine where the best siting of these facilities 
will be.
    We are engaged in a very robust effort through the 
Renewable Energy and Climate Change Task Force that I created 
in the Department to bring all of the agencies together so we 
address the specific kinds of concerns that you are raising 
here today.
    Senator Feinstein. Thank you very much. I really appreciate 
that.
    And I hope--part of my problem was the surprise. Now here, 
I was the author of the bill who helped raise some of this 
money, and then, bingo, all of a sudden this was happening. And 
so, it was an element of surprise. I really appreciate your 
taking this action. I think it is the right way to go, and I 
will be just as supportive as I can.
    Senator Alexander.
    Senator Alexander. Thank you, Madam Chairman.
    Mr. Secretary, let me follow up on Senator Feinstein's 
comments. I think what she describes in California is a good 
indicator of what we hope doesn't happen, and I am dead serious 
when I think one of the important legacies you could leave, in 
addition to building up the Land and Water Conservation Fund 
and the other areas you mentioned, is to be able to look back 
and say that we had an expansion of renewable energy in the 
country, but we did it in the right way.
    That we didn't--that we recognized that from the days of 
John Muir and Ansel Adams through Lady Bird Johnson that the 
great American landscape is really what you are--that is your 
job, really, and it is what we all love. And we don't want to 
destroy the environment in the name of saving the environment.
    Your statement mentioned some very big numbers. The energy 
potential you mention, especially in the West, 1,000 gigawatts 
of wind potential off the Atlantic coast, 900 gigawatts off the 
Pacific coast in terms of 21 million acres of public land with 
high wind potential.
    Senator Feinstein talked about large size. I think it is 
important for us to keep in mind the size. This is not a point 
that I am not trying to say renewable energy is good or bad. I 
think it is good.
    But let us say a nuclear power plant produces about 1,000 
megawatts of power. To get that from a solar, thermal plant 
like Senator Feinstein was discussing, you would need 30 square 
miles, which is about 5 miles on each side that would just 
equal one nuclear plant, which is 1 square mile. And you would 
still need the nuclear plant because the sun only shines part 
of the time.
    Biomass in the South is what is said would be a good 
renewable energy for us. We talked about that in our hearing 
with the Forest Service last week. There are a couple of 
million tons of biomass in Tennessee forests, so said the head 
of the Forest Service.
    That sounds like a lot, but that would produce about 200 
megawatts of power, and the TVA uses 27,000 megawatts of power 
on a regular basis. You would need a forest the size of the 
Great Smoky Mountains, which is 550,000 acres, to feed a 1,000 
megawatt plant on a sustained basis. That is one nuclear power 
plant equals a forest the size of the whole Smoky Mountains.
    On wind, it is even bigger, 270 square miles at 16 miles on 
a side to equal one nuclear unit, and an unbroken line of 500-
foot-tall wind turbines from Chattanooga to Bristol in our 
State, that is throughout all of east Tennessee, would give us 
one-fourth of the electricity from one unit of nuclear plant 
and really destroy the views that we treasure so much.
    T. Boone Pickens was asked whether he was going to put any 
of these 50-story wind turbines on his ranch, and he said, 
``Hell, no. They are ugly.'' And we agree with him in our part 
of the woods.
    And I have up here a map, and you can see the blue part 
over in the East, we were talking about the West. But in the 
East, the place where the wind turbines would go is the 
foothills of the Smokies, up through the Blue Ridge Parkway, on 
up through Pennsylvania into the White Mountains. I mean, those 
are the treasured ridge tops, and the wind turbines only go on 
ridge tops in the East because the wind doesn't blow as much. 
And in our part of the world, it only blows about 20 percent.
    And then we have the coast. Now you and I were part of 
debates about oil and gas and how far off should it go. I think 
one of the proposals that Republicans had was that oil and gas 
drilling should be at least 10 miles off the coast. Well, maybe 
wind turbines should be 15 or 18 miles off the coast. Then you 
couldn't see them.
    Then there is also the question of why do we need these 
large transmission lines to go across our densely populated New 
York City or densely populated California to bring in wind 
power from the Dakotas when you have got 900 gigawatts in the 
Pacific Ocean and 1,000 gigawatts in the Atlantic Ocean?
    The Secretary of Energy and Environment for Massachusetts 
wrote a letter and said that is a big waste of money to bring 
renewable energy from the middle of the country to the coasts, 
when the coasts have hundreds of thousands of megawatts of wind 
power of their own, if they want it. And they can use their 
money to go offshore.
    So my question is this. Tell me more about your plan. If 20 
percent of our electricity were wind, as some people say it 
should, that would be an area the size of West Virginia. I 
think you said it could be 50 percent. Or replace coal. That 
would be an area two and a half times the size of West 
Virginia.
    Where is all this stuff going to go? And can we take your 
concept of renewable energy zones, for example, and be assured 
that we don't have the kind of renewable energy sprawl that one 
major conservation group talked about?
    That we can say, yes, we are going to have this much. We 
are going to have it here. Transmission lines are going to be 
here. So we don't have to wake up in the morning and find out 
that we have got a row of wind turbines three times as tall as 
our football stadium going along the edge of the Smoky 
Mountains, as Senator Feinstein found in the deserts of 
California.
    Secretary Salazar. Thank you, Senator Alexander.
    First, let me say I appreciate, again, your advocacy for 
the landscapes of America. I remember your long history with 
respect to your involvement back in the 1980s and into the 
1990s and our work together here on the Land and Water 
Conservation Fund, I remember concerns that you raised, which I 
believe are legitimate concerns relative to the aesthetic 
issues that you talked about with respect to wind.
    Let me say I appreciate the concerns that you raise. Let me 
also say that the new energy frontier I think is here, and we 
are going to move forward in a very robust way to develop 
alternative energies, including solar, wind, and geothermal.
    Now the numbers that you speak about are numbers that are 
technically developable numbers. Those are numbers which I did 
not create. Those are numbers that came out of the National 
Renewable Energy Lab in Golden, Colorado, which they have 
worked on over the years. And that is exactly what they are.
    It doesn't mean that you are going to develop all of those 
gigawatts or megawatts of power that you spoke about because 
there are going to be limitations relative to where you 
actually do the siting of some of these facilities.
    Second of all, I want us to continue to underscore the 
connection between the new energy world and jobs here in the 
United States. We expect that hundreds of thousands of jobs 
can, in fact, be developed with respect to the renewable energy 
industry. We have approximately 160,000 jobs today in America 
that you can connect up to both the solar and the wind 
industry.
    In Tennessee, for example, Senator Alexander, there is a 
company, Hemlock Semiconductor Corporation, which has opened up 
a solar energy facility that is creating 500 jobs for the State 
of Tennessee. There are other plants that are there as well. 
The combined solar and wind companies are already providing 
significant jobs to the United States as we develop these new 
forms of energy.
    Thirdly, I want to comment on an issue that I think is 
integral to your points, and that is the question of 
transmission. How do you get the renewable energy resources 
from the places where they are produced to the places where 
they are consumed? Let me focus in specifically just on the 
Atlantic coast.
    When you look at New Jersey, Delaware, New York, Governor 
Carcieri from Rhode Island, who has been a major leader in some 
of these efforts, their view is that with the potential of the 
1,000 gigawatts of power off of the Atlantic that you 
essentially could plug that energy into the grid without having 
to build a lot of new transmission because you essentially 
would take the power from the wind turbines offshore, run a 
cable, and plug it into an already-existing grid system.
    New Jersey has a host of projects which Governor Corzine 
and others are ready to move forward with. Delaware is in the 
same position. Rhode Island is in the same position. New York 
is in the same position. We hope to be able to move forward 
with the permitting of some of these facilities in the very, 
very near future. Now as they move forward, part of what we 
will have to do is the environmental analysis to make sure that 
we are taking care of the oceans in those particular areas 
where these projects are to be planned. We now have rules that 
we have issued with respect to offshore wind in the Atlantic. 
Those rules have been held in abeyance really for the last 3 
years.
    We now have broken through the logjam. Those rules are out 
there, and we are processing the permit applications.
    In terms of the aesthetic and landscape issues, which you 
raise, off the Atlantic--as an example, New Jersey has wanted 
to locate its wind projects, and they have, I think, six wind 
projects that they hope to be able to build in the very near 
term. Their proposal is to have those projects built somewhere 
in the neighborhood of 6 to 8 miles off the coast.
    The State of Delaware has a project which is a significant 
size project in the Atlantic, and their proposal is to build 
that project 13 miles off the coast of Delaware.
    I think the issues that you are raising, Senator Alexander, 
and which Senator Feinstein has raised with me as well, is that 
there is a way in which we can move forward with this renewable 
energy revolution and at the same time make sure that we are 
doing it in a thoughtful way that provides a balance of the 
need for energy and the protection of our landscapes.
    Senator Alexander. Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator.
    And thank you, Secretary.
    Senator Tester, being the gentleman that he always is, will 
cede to Senator Reed because he has another appointment.
    So, Senator Reed.
    Senator Reed. Thank you. Thank you, Madam Chairman.
    Thank you, Senator Tester. Thank you very much.

                       OFFSHORE WIND DEVELOPMENT

    Welcome, Mr. Secretary. And you have already commented on 
the activities in Rhode Island to develop wind power. In fact, 
our Coastal Resources Management Council is undertaking a great 
deal of scientific studies to help site these facilities 
appropriately.
    And the Minerals Management Service is a critical component 
of any siting. They have provided technical support. They have 
consulted with Rhode Island, but it has been sporadic and 
somewhat ad hoc. And I would very much encourage you to commit 
full-time personnel coordination so that we could move these 
projects along.
    As you point out in your statement, Rhode Island and other 
States along the Atlantic coast are actively moving to get 
these wind farms into production--not theoretically, not 
conceptually, but actually moving. And the early involvement of 
the MMS would be absolutely helpful on a full-time regular 
basis. So if you could consider that, I would really appreciate 
it, Mr. Secretary.
    Now also in terms of their participation, we are doing a 
lot of scientific research, our Coastal Resource Management 
Council. But it would be unfortunate if our research didn't 
comply with what ultimately the Minerals Management Service 
considers to be appropriate. So if that could be integrated 
also?
    And in fact, I would ask very sincerely if you could 
designate a team to work full time with the State, not only to 
coordinate on all these different activities, particularly to 
verify the science. And if you could consider that, I would 
appreciate it.
    Secretary Salazar. Absolutely.
    Senator Reed. Thank you.
    Secretary Salazar. Let me just, if I can, Senator Reed?
    Senator Reed. Yes.
    Secretary Salazar. Thank you for your leadership and your 
friendship as well. Thank you for the work that you and the 
leadership in Rhode Island have already done with respect to 
wind energy. I held four hearings around the country--one in 
Atlantic City, one in New Orleans, one in San Francisco, and 
one in Alaska in Anchorage, and actually, a fifth one in 
Dillingham, Alaska, as well--with respect to the OSC.
    It was really clear to me that in the Atlantic coast area, 
there is tremendous interest on the part of the leadership to 
move forward with renewable energy and wind projects off the 
Atlantic. We have included in this budget $24 million with 
respect to moving forward with renewable energy projects on the 
offshore.
    In the interim, we are not stopping, however, and using 
resources that we already have. We broke through the logjam on 
the rules, and we look forward to working hand-in-hand with you 
and Rhode Island to make these projects a reality.
    Senator Reed. Well, thank you, Mr. Secretary.
    Again, I think a formal designation of a team, some type of 
understanding between the State to working closely together, 
and even some financial support for our efforts.
    We have already put State dollars, and it would be helpful. 
I also noted that you have talked about establishing four 
regional officers in California, Nevada, Wyoming, and Arizona 
to help speed permitting of renewable projects.
    Are you considering something on the Atlantic coast?
    Because as you point out, there is a lot of activity there.
    Secretary Salazar. I think we would probably do it. There 
will be a focus on the Atlantic because I think that is the 
primary area for wind development offshore. And so, because we 
have MMS located here in Washington in the offshore area, it 
does seem to me to make sense to have a group of people that 
are specifically assigned to working on these wind projects on 
the offshore.
    Part of the conversation I have had with some of the 
Governors on the Atlantic is to see whether we can start a 
dialogue on how we do this across the Atlantic as a whole, as 
opposed to each State doing its own thing. And so, we are 
having some conversations about that. But this I will guarantee 
you, Senator Reed, that we are focused like a laser beam on the 
wind potential off of Rhode Island, and the other States have 
shown great interest and leadership.
    Senator Reed. Thank you.
    Just one final point. That is, in all of this, we can't 
forget the equities of many different parties. One is the 
fishing industry. In fact, one of the things that the State is 
doing through their modeling, through their analysis, is trying 
to minimize the impact of these developments on traditional 
fishing grounds. And again, I think that is something that 
should be within the context of your responsibilities.
    Secretary Salazar. I agree with you, and the money that we 
are currently using as we move forward with the environmental 
analysis for these wind projects and money that we requested 
for it from the Congress in this budget with respect to 
renewable energy projects will go into those kinds of analyses.
    Senator Reed. Thank you very much, Mr. Secretary.
    Senator Feinstein. Thank you very much, Senator Reed.
    Senator Tester.
    Senator Tester. Thank you, Senator Feinstein.
    And it is good to have you here, Secretary Salazar. I 
appreciate the work that you have done in this position. I 
appreciate your work ethic. I appreciate the long hours you put 
in because I know you have, and it shows. And your answers to 
many of the questions that were asked before me, in my opinion, 
are spot on. So thank you.

                            ABANDONED MINES

    I want to talk a little bit about abandoned mine dollars. 
It was eliminated in your budget. We have about 4,000 abandoned 
mines in Montana. Many, if not most, are on Federal lands. And 
they are a problem.
    They are problem for water quality. They are a problem. 
What is the plan? Because they are not going to go away.
    Secretary Salazar. First, Senator Tester, let me say the 
issue of abandoned mines is a major issue throughout the 
country, in particular in many places in the West--Montana, 
California, New Mexico, Nevada, and Colorado. We know that 
there are not dozens, but there are really thousands of 
abandoned mines that were created at a time when we didn't have 
the kinds of environmental laws in place that we have today. 
They create threats to the public safety, and they are issues 
that we have to deal with.
    Montana has used money that it gets from the reclamation 
fees from coal to try to address this very huge problem, which 
Montana faces. Our budget, the administration's budget looked 
at what the coal program had been set up to do with respect to 
those reclamation fees and made the determination that with 
respect to coal mine reclamation, that those monies were not 
needed for that particular purpose.
    Now having said that, that does not take away or minimize 
the importance of trying to do something with respect to the 
abandoned mine issue. It is my hope that we can figure out a 
way of addressing that issue, and it may be in part what we are 
able to do through mining law reform as we move forward with 
that agenda.
    Senator Tester. Okay. It is--and I don't need to tell you 
this. You know this as well if not better than I do. The AML 
monies, and Montana has accounts set up for it. If it goes in, 
it is used for mine clean-up. It works in Montana. We didn't 
use it to back fill our general fund. We used it to clean up 
mines.
    And I would hope that we do not take our eye off the ball. 
I know from your previous statement that you know that. And I 
look forward to working with you to make sure that we continue 
that program, and I know that the chairman feels the same way 
about it as far as getting those mines cleaned up.

                      NATIVE AMERICAN COMMUNITIES

    There are several things in the budget dealing with Native 
Americans. One of them is stripped funding for community 
development programs to train American Indians as skilled 
workers. Another one is to eliminate funding for critical 
housing improvement programs, which serves the poorest of the 
poor in Indian country.
    I guess my question is, is that is this being shifted to 
another agency out of Interior, BIA over to Labor or Housing, 
or what is going on? Because these are programs that I think 
are invaluable programs. And to eliminate them without a backup 
somewhere else, and I don't want duplication, so if it is being 
shifted somewhere else, I would like to know that.
    Secretary Salazar. Senator Tester, I appreciate the 
question. I will just communicate what I said in my opening 
statement earlier, and that is the issues of empowering our 
Native American communities are very important to me. I know 
how important they are to you in Montana, how they are to North 
Dakota, California, and lots of other places.
    We will have a robust agenda relative to the economic and 
the law enforcement and educational issues for Indian country. 
We invested significant amounts of money, as you well know from 
our conversations, concerning education and housing and law 
enforcement from the recovery funds received in the Department 
of the Interior.
    We also recognize that there are other agencies that are 
involved in delivering these services to Indian Country, 
including Housing and Urban Development and Health and Human 
Services. We are working to develop a coordinated approach to 
how we deliver these services to Indian Country.
    Senator Tester. I appreciate that. Once again, just as with 
the abandoned mine monies, and I think it is ridiculous, quite 
frankly, to have as many agencies dealing with the same problem 
as we do. And so, I think consolidation and making sure that we 
get the most bang for the buck and making sure the money gets 
to the ground, that effort is a noble effort and needs to be 
done.
    And I just don't want the programs to go away without 
something back there helping Native Americans so they just 
don't have to hold the stop sign. They can actually be running 
the piece of equipment that is behind that stop sign. So, and I 
think you see it the same way. <greek-l>

                        PREPARED STATEMENT deg.

    Just in closing, real quick, thanks for coming to Montana 
in April. Appreciate the visit. Don't forget we have got to 
write up the St. Mary's plan at some point in time, your 
schedule permitting.
    Thank you. <greek-l>


 
                          INSERT FOLLOWS deg.

    Secretary Salazar. I will be in Montana again, Senator 
Tester--as I will in Tennessee, as I will in California.
    Senator Feinstein. Better cover them all.

                            ABANDONED MINES

    Mr. Secretary, I would like to just continue on the 
abandoned mine subject because we have 47,000 abandoned mines 
in California, and an estimated 13,000 are on BLM land. Now 
thousands have major safety or water quality hazards, and some 
of these are really in popular recreation areas.
    Earlier this year, I introduced a bill, The Abandoned Mines 
Reclamation Act. It created an abandoned mine clean-up fund. It 
established spending priorities for the clean-up fund based on 
the severity of risk to public health and safety and the impact 
on natural resources, and it would direct you to create an 
inventory of abandoned mines on all Federal, State, tribal, 
local, and private land.
    I would like to ask that you take a look at the bill. Let 
me know what you think of it. I mean, if the subcommittee 
feels, I may well try to legislate on an appropriation bill 
just to get it done. It is a possibility. So if you would look 
at it, I would appreciate it.
    In 2008, I put $1.9 million into BLM and National Park 
Service budgets to identify and remediate hazards, hazardous 
abandoned mines in California. In 2009, I added $8.1 million, 
and under the stimulus, your Department allocated a total of 
$52 million for mine clean-up work that should be getting 
underway now.
    So one of the things I would like to do is ask you how that 
is going, in other words, the money appropriated by the 
stimulus. And the second question is do you have a prioritized 
list of abandoned mines on public lands?
    Secretary Salazar. On the second question, we should have 
one. I am not aware that one exists today, but it is something 
that we will work on as soon as I get my Assistant Secretary 
for Land and Minerals, my Solicitor, and a whole host of other 
people, the BLM director, that I need really to be able to do 
the work that you and others are asking of me. We will do it, 
and we will get it done.
    On the overall issue of the abandoned mine challenge that 
we face, let me just say I will work with this subcommittee. I 
understand the importance of the issue. I understand we have a 
major role because many of these mines are located on our 
public lands. Many, most of them on BLM lands. It is something 
that is of high importance to me.
    Senator Feinstein. Well, in a nutshell, what I am saying is 
we have specifically appropriated now $62 million to get 
cracking on these mines, and I am a little bit frustrated 
trying to find out what is happening. Is there a priority list? 
There should be.
    And therefore, I don't know, maybe we should have--I would 
like to have Senator Alexander take a look at the bill. Maybe 
we need to pass it? But the money is now there. And there has 
to be a priority, prioritized list, it would seem to me. This 
is 3 years of appropriating money, and we ought to get the 
list.
    Secretary Salazar. I will see if there is a list that we 
can get to you, Senator Feinstein.
    Let me just say this. Two points. First, with respect to 
the recovery project monies, which this subcommittee worked so 
hard to get to the Department of the Interior. What we did is 
we went through those funds, including the funds that were made 
available for reclamation of abandoned mines, and selected 
those projects which were shovel-ready because that was the 
purpose which you had given us in terms of the stimulative 
consequence that you wanted from the investment of those 
monies.
    The reclamation projects for abandoned mines that will be 
funded through the recovery dollars have been identified, and 
those projects will get, in fact, done.
    Senator Feinstein. Well, then would you send us the list, 
please? I would like to see the list.
    Secretary Salazar. I will get you the list with respect to 
the recovery-funded projects.
    [The information follows:]

                 AML PROJECTS SELECTED FOR ARRA FUNDING
------------------------------------------------------------------------
                          Project title                            State
------------------------------------------------------------------------
Upper Koyukuk Mine Hazard Inventory--Verify physical hazards and      AK
 initiate remediation program...................................
Old Placer Gold Mines Restoration--Restoration of stream              AK
 channels impacted by historical placer min.....................
Red Devil Fuel Spill Remediation--Measurement of the nature and       AK
 extent of diesel fuel contamination............................
Red Devil Hazardous Waste Remediation--Treatment or disposal of       AK
 prior excavated petroleum contamination........................
Times Gulch Mine--installation of access barrier to reduce risks      AZ
 and protect wildlife habitat...................................
Times Vein Mine--installation of an access barrier to reduce          AZ
 public safety risks and protect sensitive......................
San Diego Mine (Union Pass)--installation of access barrier to        AZ
 reduce risks and protect wildlife..............................
Vulture Mine--backfill open mine shafts/install barriers to           AZ
 reduce risks and protect wildlife..............................
Thumb Butte Mine (Union Pass)--install barrier to reduce risks        AZ
 and protect wildlife habitat...................................
Mary Nevada Mine (Hualapai Mountains)--Install access barriers        AZ
 to reduce risk and protect wildlife............................
Porter Mine (N. Black Mountains)--Install access barrier to           AZ
 reduce risk and protect wildlife...............................
Fire Mountain Mine (N. Black Mountains)--Install barrier to           AZ
 reduce risks and protect wildlife..............................
Wickenburg Mill site--monitor, sample, and assess soils and           AZ
 groundwater for contaminants...................................
Gold Hill Mine and Vicinity bat gates...........................      AZ
Octave Mill Site--Complete PA/SI site characterization work of        AZ
 abandoned mine tailings........................................
Great West Mine (N. Black Mountains)--Install access barriers to      AZ
 reduce risks and protect wildlife..............................
Gigi Girl Mine (Hualapai Mountains)--Install access barrier to        AZ
 reduce risk and protect habitat................................
Swansea Mine and Adits (Lake Havasu)--Plug adits, install             AZ
 barriers, and fence to reduce risks............................
Rand Historic Mining District--Air and biological monitoring....      CA
Ruth Mine--fencing of tailings..................................      CA
Darwin Mine--tailings remediation...............................      CA
Barstow Off Highway Vehicle Physical Safety Hazards.............      CA
Palm Springs Off Highway Vehicle Physical Safety Hazards........      CA
El Centro Off Highway Vehicle Physical Safety Hazards...........      CA
Ridgecrest Off Highway Vehicle Physical Safety Hazards..........      CA
Needles Off Highway Vehicle Physical Safety Hazards.............      CA
Edith E. Mine Physical Safety Hazard............................      CA
Yuba, Nevada and Placer County Physical Safety Hazard Sites.....      CA
El Dorado and Amador County Physical Safety Hazard Sites........      CA
Calavera County Physical Safety Hazard Sites....................      CA
Tuolomne and Mariposa County Physical Safety Hazard Sites.......      CA
Archer Mine--Site cleanup and restoration.......................      CA
Contact Mine--mercury contamination--EE/CA--mine waste removal..      CA
Sonoma Mine--mercury contamination--EE/CA--mine waste removal...      CA
Helen Mine--mercury contamination--EE/CA--mine waste removal....      CA
Davis Mill Remediation--Site cleanup and removal................      CA
Longfellow Mill--heavy metal contamination, physical safety           CA
 hazard remediation.............................................
Islander Mine--install access barriers and fencing to reduce          CA
 risks and protect habitat......................................
Deer Creek Brownfield Project--mercury tailings removal and           CA
 remediation/stabilization......................................
Badger Hill Sluice Tunnel--mercury contamination................      CA
AML Project Coordinator--monitor closures, inventory projects,        CO
 coordinate NEPA and contracts..................................
Crystal Hill mine closure project...............................      CO
Club Mesa mine closure project..................................      CO
Kankakee mine closure project...................................      CO
Long Park mine closure project..................................      CO
Sillsville mine closure project.................................      CO
War Eagle mine closure project..................................      CO
Whale Hill mine closure project.................................      CO
Box Canyon Mine closure.........................................      CO
Dawson Mountain mine closure project............................      CO
Grape Creek mine closure project................................      CO
Jelly Roll mine closure project.................................      CO
Montrose City Uranium mine closure project......................      CO
Abandoned Mine Lands Grand Junction Field Office Mine Closure         CO
 and Reclamation................................................
Eveline Mine Remediation Project................................      CO
Field Validation AML Sites......................................      DC
Zortman/Landusky Mine--Install wind turbine to run acid water         MT
 treatment system; install clarifier............................
Maiden Rock Phosphate Site (Big Hole River)--Closures of              MT
 numerous physical safety hazards...............................
Maiden Rock Phosphate District Phase II (Goat Mountain, Canyon        MT
 Creek)--inventory/assess hazards...............................
Maiden Rock Phosphate District--Conduct environmental analysis        MT
 needed for mine closures.......................................
Maiden Rock Phosphate Phase II (Goat Mountain, Canyon Creek)--        MT
 close physical safety hazards..................................
East Pacific/Chartam Mine Reclamation...........................      MT
Thistle Mine Tailings Reclamation (Rochester Area)..............      MT
Great Divide Sand Tailings Removal..............................      MT
Clark County Nevada Abandoned Mine Lands--Closures to prohibit        NV
 humans/allow wildlife access...................................
Northern Nevada Abandoned Mine Lands--Install mine entrance           NV
 closures to eliminate hazards..................................
Nevada Abandoned Mine Lands Biological and Cultural Surveys--         NV
 Surveys before closure of mines................................
Ward Mountain Nevada Abandoned Mine Lands--Reclamation to             NV
 provide habitat and public safety..............................
Rip Van Winkle Nevada Abandoned Mine Lands--Cleanup, stabilize,       NV
 restore, cap shafts, fence.....................................
Golden Butte Nevada Abandoned Mine Lands--Revegetation of the         NV
 Golden Butte mines site........................................
Tuscarora Nevada Cadastral Survey--Determine boundaries before        NV
 reclaiming abandoned mines.....................................
Goodsprings Nevada Cadastral Survey--Determine boundaries before      NV
 reclaiming abandoned mines.....................................
Nelson Cadastral Survey--Determine land boundaries in advance of      NV
 reclaiming abandoned mines.....................................
Nevada American Flats/Comstock United Merger Mill Abandoned Mine      NV
 Lands--Record and remediate....................................
Caselton Nevada Tailings Abandoned Mine Lands--Update action          NV
 plan and reapply dust controls on site.........................
Almeda Mine Site--assessment for ultimate installation of system      OR
 to limit uncontrolled discharge................................
Remediation of known Abandoned Mine Sites in SW Oregon--EE/CA         OR
 for physical danger and water quality..........................
Inventory of Historic Areas for Abandoned Mine Features--             OR
 identification, prioritization, remediation....................
Utah Shaft Closures--physical safety hazards....................      UT
Physical Safety/Environmental Hazard Site Inspections--Inspect        UT
 sites 1 mile of populated areas................................
Wyoming Abandoned Mine site reclamation--Secure and seal              WY
 hazardous mine openings in WY..................................
------------------------------------------------------------------------

    Secretary Salazar. On your broader question on whether we 
have created that inventory across the country with respect to 
abandoned mines, let me take a look at that, and I will get 
additional information back to you. I understand the enormity 
of the problem and the importance of the problem.
    [The information follows:]
              Abandoned Mine Sites on National Park Lands
    Abandoned mines are in 126 National Park System units. An ongoing 
inventory in the units so far revealed an estimated 3,100 sites with 
about 8,400 mine openings, piles of tailings, and hazardous structures 
and thousands of hectares of scarred lands.
    Does the Bureau of Land Management (BLM) have an inventory of 
Abandoned Mine Land (AML) Sites, and prioritization of it?
    Yes, the BLM does have an inventory and central repository for data 
regarding AML Sites. This data is stored in the BLM's Abandoned Mine 
Land Site Cleanup Module Database. The database tracks information on 
both Abandoned Mine Land sites and hazardous material sites. Though the 
database does not rank sites; there is an AML strategic plan and manual 
that both describe prioritization of AML sites based on water quality 
and physical safety hazard degradation criterion.
    The BLM maintains an inventory of nearly 20,000 AML sites. Most 
sites are small to medium in size and environmental impact. The most 
common site features are: open adits and shafts; waste dumps; highwalls 
and pits; and tailings piles. About 25 percent of the sites have either 
been remediated, have reclamation actions planned or underway, or do 
not require further action. The remaining 75 percent require further 
investigation and/or remediation. The Abandoned Mine and Site Cleanup 
Module database houses our inventory data. In fiscal year 2009, the 
system's Project Change Management Board/Users' Group is looking to 
improve data quality and make system improvements.

    Senator Feinstein. Right. Our subcommittee clerk actually 
went and took pictures of some of these, particularly in 
California and on BLM land. So we can share those with you as 
well.
    [The information follows:]

                                          ABANDONED MINE LANDS PROJECTS
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                         Project
        Region/area/district           Unit/          Unit name         State        Project title        cost
                                     facility                                                           estimate
----------------------------------------------------------------------------------------------------------------
AKR................................     DENA   Denali................      AK   Close Hazardous Mine          32
                                                                                 to Improve Visitor
                                                                                 Safety.
AKR................................     KEFJ   Kenai Fjords..........      AK   Install Gate to              179
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat at Remote
                                                                                 Locations (multiple
                                                                                 projects).
AKR................................     WRST   Wrangell-St. Elias....      AK   Install Gate to               71
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat (multiple
                                                                                 projects).
MWR................................     BUFF   Buffalo National River      AR   Repair Fences to             396
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat.
IMR................................         CORCoronado..............      AZ   Install Gate to              868
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat at Remote
                                                                                 Locations (multiple
                                                                                 projects).
IMR................................     FOBO   Fort Bowie............      AZ   Install Gate to               54
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat.
PWR................................     PARA   Grand Canyon Para-          AZ   Install Gate to              164
                                                shant.                           Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat (multiple
                                                                                 projects).
IMR................................     SAGU   Saguaro...............      AZ   Install Gate to              189
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat (multiple
                                                                                 projects).
IMR................................     SAGU   Saguaro...............      AZ   Repair Fences to             324
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat.
IMR................................     SAGU   Saguaro...............      AZ   Remove Contaminated          418
                                                                                 Soil and Restore
                                                                                 Natural Landscape.
IMR................................     SAGU   Saguaro...............      AZ   Install Steel Cupola          54
                                                                                 to Protect Visitors
                                                                                 and Preserve Resource
                                                                                 Habitat.
IMR................................     SAGU   Saguaro...............      AZ   Seal Mine and Remove          54
                                                                                 Hazardous Structures
                                                                                 to Improve Visitor
                                                                                 Safety.
IMR................................     SAGU   Saguaro...............      AZ   Seal Hazardous Mine to        54
                                                                                 Protect Visitor and
                                                                                 Restore Natural
                                                                                 Landscape (multiple
                                                                                 projects).
PWR................................     DEVA   Death Valley..........        CA Install Gate to            1,688
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat at Keane
                                                                                 Wonder Mine.
PWR................................     DEVA   Death Valley..........        CA Install Gate to              304
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat at Greenwater
                                                                                 Valley.
PWR................................     DEVA   Death Valley..........        CA Install Gate to            1,958
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat at Skidoo
                                                                                 Mine.
PWR................................     DEVA   Death Valley..........        CA Install Gate to              939
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat at Remote
                                                                                 Locations (multiple
                                                                                 projects).
PWR................................     JOTR   Joshua Tree...........        CA Install Gate to            1,067
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat (multiple
                                                                                 projects).
PWR................................     MOJA   Mojave................        CA Perform Initial            1,625
                                                                                 Temporary Mine
                                                                                 Closure (multiple
                                                                                 projects).
PWR................................     MOJA   Mojave................        CA Install Gate to              402
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat at Abandoned
                                                                                 Paymaster Mine.
PWR................................     MOJA   Mojave................        CA Install Gate to            4,494
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat (multiple
                                                                                 projects).
PWR................................     MOJA   Mojave................        CA Restore Natural              308
                                                                                 Landscape and
                                                                                 Resource Habitat.
IMR................................     GRSA   Great Sand Dunes              CO Restore Natural            2,370
                                                National Preserve.               Landscape and
                                                                                 Resource Habitat.
PWR................................     LAME   Lake Mead.............      NV   Seal Hazardous Mine,         224
                                                                                 Install Gate, and
                                                                                 Restore Natural
                                                                                 Landscape (multiple
                                                                                 projects).
PWR................................     LAME   Lake Mead.............      NV   Seal Hazardous Mine           21
                                                                                 and Restore Natural
                                                                                 Landscape (multiple
                                                                                 projects).
PWR................................     LAME   Lake Mead.............      NV   Install Gate to              124
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat (multiple
                                                                                 projects).
MWR................................         CUVCuyahoga Valley.......      OH   Close Four Hazardous         126
                                                                                 Abandoned Oil and Gas
                                                                                 Wells and Restore
                                                                                 Natural Landscape.
SER................................     BISO   Big South Fork              TN   Install Gate to              212
                                                National River and               Protect Visitors and
                                                Recreation Area.                 Preserve Resource
                                                                                 Habitat.
SER................................     BISO   Big South Fork              TN   Close Eight Hazardous      2,862
                                                National River and               Abandoned Oil and Gas
                                                Recreation Area.                 Wells and Restore
                                                                                 Natural Landscape.
IMR................................     BITH   Big Thicket...........      TX   Remove Two Oil and Gas       540
                                                                                 Wells and Restore
                                                                                 Natural Landscape.
IMR................................       GLCA Glen Canyon...........      UT   Install Gate to               81
                                                                                 Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat.
NER................................     NERI   New River Gorge             WV   Install Gate to              226
                                                National River.                  Protect Visitors and
                                                                                 Preserve Resource
                                                                                 Habitat (multiple
                                                                                 projects).
----------------------------------------------------------------------------------------------------------------

                             BRIAN O'NEILL

    Senator Feinstein. I also would like to thank you--I was 
reading your testimony--for including the statement on Brian 
O'Neill. His memorial service--this was a wonderful park 
superintendent of the Golden Gate recreation area, and he was 
enormously popular. And I think 3,000 people turned out for a 
memorial service, which is really quite unusual and wonderful. 
So thank you for your comments in your written testimony. They 
are appreciated.
    Secretary Salazar. I appreciate that, Senator Feinstein. 
Let me just say, if I may, that Brian O'Neill was one of the 
heroes of our National Park System, and one of the truths about 
this Department is the 73,000 employees, which include the 
seasonals that we have onboard, they are very good and 
wonderful public servants. And whether they work in Tennessee 
or in the Dakotas or in California, it has been one of the 
highlights of my time at Interior.
    Senator Feinstein. Thank you.
    Senator.
    Senator Alexander. Thank you.

                  GREAT SMOKY MOUNTAINS NATIONAL PARK

    Mr. Secretary, first, we very much hope you will be able to 
come to the Great Smoky Mountains 75th anniversary celebration 
in the fall. And if you can, you will be welcomed by lots of 
people. We hope the President can come as well. He has been 
invited by the Governors of North Carolina and Tennessee.
    Would you put on your list for after you get a few more 
employees onboard the Smokies, the air tour management plan, 
the overflights of the National Parks? That is an issue in some 
places, and a law was passed. Senator Akaka did a lot of work 
on it in 2000. It is an argument between the FAA and the 
National Park Service, and we can talk about it sometime. But I 
would like to get that going. I would like to see one, for 
example, for the Great Smoky Mountains area.

                            RENEWABLE ENERGY

    Second, just a couple of observations on what was said 
earlier, you mentioned Hemlock. Now I don't want to get into an 
energy debate with you because I am talking about landscape.
    We do have these two new solar plants making polysilicon in 
Tennessee. They are billion dollar investments. It goes to make 
solar cells. We are trying to be a solar hub down there of 
energy research with Oak Ridge and with Sharp Manufacturing in 
Memphis. But what is interesting to note is each of the two 
polysilicon plants, including the one you mentioned, use 120 
megawatts of electricity.
    Now the only--the Governor has started a 5 megawatt solar 
facility in Tennessee. It covers 20 acres. In other words, 
those solar jobs wouldn't be there if they were relying on 
windmills and solar energy. They have to get their energy from 
nuclear and coal and natural gas in order to be able to be in 
Tennessee. One hundred twenty megawatts is a huge amount.
    Second, I totally agree with your focus on wind power 
offshore. I mean, I think that makes the most sense. The 
question it raises to me, as you do your planning, is one 
reason we thought that 10 miles offshore might be good for oil 
and gas drilling is you couldn't see it 10 miles offshore. You 
would have to go 15 or 16 miles offshore not to be able to see 
the big wind turbines, and you might want to think about that.
    And that also raises the question to me again of if you are 
going to do that on the east coast and the west coast, then why 
would we spend hundreds of millions of taxpayer dollars and 
ratepayer dollars trying to bring wind from North Dakota to New 
York City, when all you have got to do is plug it in, as you 
have said, from out there?
    But here is my question. Listening to Senator Feinstein and 
others, someone said, I believe the chairman, that there were 
47,000 abandoned mines across the country?
    Senator Feinstein. No, in California.
    Senator Alexander. In California. Well, if 20 percent of 
our electricity is wind, that would take 130,000 wind turbines 
that are 50 stories tall, 2 megawatts each. So even if we could 
think about an appropriate place to put them, wouldn't it be a 
good idea to require the developers to put up a bond to take 
them down if they don't use them anymore?
    Because the subsidy might go away, in which case many of 
them wouldn't be viable. The price of energy might change. Let 
us say we have a breakthrough in solar power, and suddenly, it 
is cheap. Everybody says rather than put up windmills, we will 
just put panels on our rooftops.
    Or they wear out after about 15 years, and wouldn't it be a 
good idea to require a bond so that we don't have Senators 20 
years from now coming with the abandoned windmill legislation, 
like Senator Feinstein is about to come forward with the 
abandoned mine legislation?
    Senator Feinstein. And you can be assured if I am around, I 
will.
    Senator Alexander. I am sure you will be around.
    Senator Feinstein. I hope so.
    Senator Alexander. But what about the bond idea?
    Secretary Salazar. The bond idea makes sense. What we need 
to do is make sure that as we are permitting renewable energy 
projects, that we are doing it cradle-to-grave. That is to say 
from the permit and the environmental assessments to the end of 
the project and the decommissioning of the project to make sure 
that the landscape and the environment is restored back to its 
original condition. It is very much something that is on our 
agenda.
    Just very quickly, I will get back to you on the helicopter 
flights in general.
    Senator Alexander. Sure.
    Secretary Salazar. On nuclear, you raised that a couple of 
times, Senator Alexander. We are very open, as part of the 
Obama energy comprehensive plan, to look at nuclear as being 
part of our energy program for the Nation.
    And third, I want to comment just a little bit in terms of 
the Dakotas and the height and the winds from the high plains. 
There is, at the end of the day, in terms of onshore wind, what 
we have to do is deal with the reality of transmission. It may 
be that the great wind resource, which we do have in the 
Dakotas and places like Wyoming, and other places, we will be 
able to provide power into places like Chicago and the Midwest 
and tie into a system where we can move energy around.
    That is why we have to be very thoughtful with respect to 
where we are locating the renewable energy generation 
facilities, but also be very thoughtful about how we are 
placing them relative to our transmission capabilities which we 
currently have and transmission capabilities to be built in the 
future.

                    LAND AND WATER CONSERVATION FUND

    Senator Alexander. Madam Chairman, if I could only--say I 
haven't asked the Secretary questions about the Land and Water 
Conservation Fund. But he knows how interested I am in 
supporting him in those efforts, how much I enjoyed working 
with him on those items before. And I do think--and I know of 
his interest in this, and I do think he has an opportunity to 
leave a great legacy in that area. And I hope to be able to 
support that and to work with him on it as we have before.
    Senator Feinstein. Thank you very much, Senator.
    We are joined by Senator Dorgan. Senator, please, take 
over.
    Senator Dorgan. Thank you very much, Senator Feinstein.
    I apologize that I have been delayed at another hearing.
    Secretary Salazar, thank you for being with us.
    Mr. Secretary, you were in North Dakota recently visiting 
an Indian tribe and some energy projects. I want to ask you 
about something we talked about then, and it is not a big 
national policy, but it is one that is an irritant for a lot of 
folks.

                ELK AT THEODORE ROOSEVELT NATIONAL PARK

    We have the Theodore Roosevelt National Park in the 
Badlands, and we have a problem with overpopulation of elk. And 
so, the question was how do you thin the elk herd? And 
originally, the National Park Service talked about maybe hiring 
Federal sharpshooters and then using helicopters to transport 
out the carcasses, which is just completely devoid of common 
sense.
    And so, in the Grand Tetons, for 50 years, there has been 
an opportunity when they have to thin the herd, they go ahead 
and qualify certain hunters who are capable hunters, allow them 
to come in as agents and thin the herd, and take one elk 
carcass per hunter out of the park.
    Do it without any Federal cost at all, no helicopters, 
Federal sharpshooters. And so, I have been trying to get them 
to see if I could get to the same position in North Dakota, the 
Theodore Roosevelt National Park.
    So they have held a bunch of meetings now, a good many 
meetings across the State, not allowing anybody to speak at the 
meetings, which is a very curious thing. And now they are 
thinking maybe they will allow some hunters, but not allow any 
hunter to take the meat.
    So the problem is they have just got themselves wound 
around a tree, like the rope around a tree, trying to figure 
out what should take you and me about 10 minutes to come to a 
conclusion on.
    Can you help us get to a conclusion that just allows the 
Federal Government to get the elk herd thinned without spending 
Federal money and allowing qualified hunters to come in and 
take the meat home? And it is all over, and we can free up a 
little time with these big old planners down at the Park 
Service who have just met themselves coming and going trying to 
figure it out?
    Secretary Salazar. Senator Dorgan, the answer is yes. Let 
me say that I very much enjoyed my visit to North Dakota to 
review the carbon sequestration program, which is the only one 
in the Western Hemisphere which is actually up and running, and 
to do the work that we did at the Indian reservations and other 
things that we did at your invitation in North Dakota.
    The Theodore Roosevelt National Park and the elk issue is 
one I think which calls out for common sense solutions, and 
that is what we will push. I do now have a list of about 1,000 
items that have piled up from United States Senators, members 
of the United States Congress and Governors, and I need to get 
people into place so that I can start executing on some of the 
requests that have been made of me. This is one which is on my 
radar screen, as you and I had discussed.
    At Rocky Mountain National Park, we came up with a common 
sense solution that involved hunting and that uses the reality, 
which we all know, those of us who come from that background, 
that hunting is, in fact, a wildlife management tool. If we 
have elk as wildlife in our National Parks, there is a way in 
which we can do it in a common sense way that still protects 
the mission of the National Park Service and National Park 
units.
    Senator Dorgan. Mr. Secretary, I have a lot of confidence 
in you. So I look forward to working with you on that common 
sense solution.

                     INDIAN COUNTRY LAW ENFORCEMENT

    One final question. As you know, I chair the Indian Affairs 
Committee, and we have very serious law enforcement problems on 
Indian reservations. One in three Indian women will be raped or 
sexually assaulted during their lifetime. On some Indian 
reservations, on the Standing Rock Reservation that straddles 
North and South Dakota, the rate of violent crime is nearly six 
times that of the national average--not double, triple, or 
quadruple, six times.
    And you have I believe 9 law enforcement officers that are 
providing 24 hours a day, 7 days a week law enforcement on an 
area the size of the State of Connecticut. Obviously, an 
emergency call for law enforcement help might be answered in 8 
hours. It could be the next day on an emergency basis. So we 
have got all of these problems.
    We have a place called Artesia, New Mexico, training tribal 
police candidates. They get about 150 people a year into 
Artesia and graduate about 50 percent of them. So we get about 
80 new graduates each year in tribal law enforcement issues.
    And we need to establish a second area. I have talked to 
you about that. And I just wanted to especially call your 
attention to the need in the BIA that you are involved with 
down at Interior to help us address this serious law 
enforcement problem. It is urgent on many reservations in many 
States across the country.
    And if you would work with us on that, I would sure 
appreciate it. And we do need to establish a second location 
for an Indian police academy. We obviously need to be 
graduating more than 80 a year, and you and I have talked about 
that as well.
    So you inherit a pretty big job. And by the way, 
congratulations on your selection for the head of the BIA, the 
Assistant Secretary's job that has been open and vacant for 
half of the last, I believe, 5 or 6 years, which is shameful. 
But you have a good candidate that we have now moved through 
the United States Senate. I think that is going to help a great 
deal.
    Secretary Salazar. Thank you, Senator Dorgan.
    And let me say thank you as well for your leadership and 
advocacy in getting Larry Echo Hawk confirmed as Assistant 
Secretary for Indian Affairs. I have already met with him. This 
was his first week on the job, and we have placed these issues 
on his agenda.
    Since the Assistant Secretary for Policy, Management, and 
Budget was just confirmed and is sitting right behind me, I 
will ask Rhea Suh to take a look at the very question which you 
raise. I think we have a $500,000 increase to provide an 
outreach program for police training from the current existing 
academy.
    Senator Dorgan. That is correct.
    Secretary Salazar. It seems to me the concept that you 
raise of having an academy that is not in Artesia, New Mexico, 
but an additional one up in the northern part of the country is 
one that makes some sense conceptually. Let me put that on 
Rhea's screen and Larry Echo Hawk's screen and let us come back 
to you with something that we might be able to do.

                           ENERGY DEVELOPMENT

    Senator Dorgan. And one final thank you. On energy 
development, particularly oil development--in our State, as you 
know, oil development was occurring north, south, and west of 
the Indian reservation Three Affiliated Tribes.
    It was the largest assessed recoverable oil reserve in the 
history of the Lower 48 States, called the Bakken Shale.
    We had up to 100 rigs drilling new wells every 30 or 35 
days and moving. And if you got a map and see where they are 
going to drill the new wells, they weren't drilling them on the 
Indian reservation, despite the fact that was right in the 
middle of ground zero. It was because there was a 49-step 
process and 4 different Federal offices that had to do with all 
kinds of issues, and so the result was we didn't have any wells 
up there that were being drilled.
    You and your former Interior Secretary have addressed this, 
and we now have some capability, and we are seeing some wells 
drilled finally on the reservations. So that is a big start.
    I hope you will pay a lot of attention to that because the 
bureaucracy is like walking through wet cement. You have got a 
49-step process and 4 different agencies inside of the Interior 
that have to do approvals. We need to streamline that somehow 
because we need to have energy development on these Indian 
reservations as well.
    So thanks for your work on it, and your predecessor did 
some good work as well. We appreciate that.
    Secretary Salazar. I agree.

                     POINT REYES NATIONAL SEASHORE

    Senator Feinstein. If I might, Mr. Secretary, you might 
want to take a look overall at the policies. I think I told you 
about the whitetail deer in the Point Reyes National Seashore, 
and there was helicopters shooting of these deer by the Park 
Service.
    They are not a native species. They are loved by the 
residents. They are beautiful deer. And so, the Park Service 
decided they were going to shoot them all, and they put out the 
helicopters. And I heard immediately from the residents who 
were very upset about it, and it was a tussle. But finally, the 
way it was resolved was that the helicopters shooting would 
stop and that birth control would take care of the remaining 
population.
    But it is really concerning. I think there ought to be a 
review of what these policies are because elk is good to eat, 
too. Why shouldn't hunters be able to do some hunting on a 
regulated basis and take home the meat?
    I mean, this business of running helicopters over and 
shooting whitetail deer, I mean it is terrible.
    Senator Dorgan. Senator Feinstein, if I might just yield on 
that point? We generally have a no hunting provision in the law 
with respect to National Parks, but that should not apply to a 
program by which the Park Service or those that are running the 
parks decide they have got to thin a herd. Why would they not 
then use qualified hunters?
    But this nutty idea of going out and hiring a bunch of 
Federal sharpshooters and helicopters, you know, the sky is the 
limit apparently with the budgets of some of these agencies. 
All we need is just a good strong dose of common sense to fix 
these things.

                      WILD HORSE AND BURRO PROGRAM

    Senator Feinstein. One last issue, if I might? And that is 
the Wild Horse and Burro Program. This is run by the BLM, and 
it is proposed to increase from $41 million to $67 million. It 
is a 63 percent increase.
    And the budget attributes the problem to a dramatic 
increase in holding costs resulting from a decline in the 
adoption market. And it goes on to say that program costs--and 
this is a quote--``would continue to increase significantly in 
future years unless new and innovative management approaches 
are implemented.''
    So these costs are rising steadily. There is an 
alternative, and I would like to hear your thought.
    Madeleine Pickens has come in and spoken with me, proposing 
to create a horse sanctuary. I believe she is actually looking 
at some land in Nevada, whereby she would take many of the 
horses currently being held by the Government and allow them to 
roam free. This is a 540,000-acre ranch in Nevada. And in 
return, and the Government would give her $500 per head in an 
animal stipend.
    Now are you familiar with this proposal? Have you had a 
chance to look at it?
    Secretary Salazar. I am familiar, first, with the problem, 
and second, I am familiar with Ms. Pickens's proposal. I am not 
pre-judging what we will do there, but it, frankly, strikes me 
that paying $500 a year per horse, you will soon in 10 years 
pay $5,000 per horse. In 20 years, it is $10,000. In 30 years, 
it is $30,000.
    Senator Feinstein. So the problem is that $500?
    Secretary Salazar. Frankly, I think we need a whole new 
strategy with respect to how we deal with this mushrooming 
problem on our public lands. I can think of the needs that you 
have to balance out here in Congress, we have to balance in the 
administration.
    Frankly, having us come before you today and say $41 
million is not sufficient, we need $67 million in order to deal 
with the wild horse and burro problem, I think, is a reflection 
of a failed strategy that we have had with respect to wild 
horses and burros.
    I will, as soon as I have an Assistant Secretary for Land 
and Minerals and a BLM Director, put them on task to come up 
with a new strategic plan on how we deal with this issue.
    Senator Feinstein. Right. I would appreciate your keeping 
me advised. As an old horse person, these wild horses have a 
real place in our country. And I understand the growth, but 
there might be some response in terms of a proposal from the 
Government to her.
    I understand your per-head cost. Maybe it is a fixed fee 
for over a period of the next 5 to 10 years or something like 
that. If she were to obtain the ranch and run it, I mean, she 
would have to provide the people and the food, the feed, which 
is not inexpensive for so many horses.
    Secretary Salazar. If I may, Senator Feinstein, I would 
like to comment. The problem that we have with horses out in 
the wild range is that, frankly, because of the cost of feed, 
what many people have done who are horse owners is basically 
turn these horses out onto the public lands. What was once a 
horse owned in private ownership essentially becomes a charge 
of the Federal Government. I think there is an unfairness with 
respect to that.
    Senator Feinstein. That is right. I would agree.
    Secretary Salazar. It is no different, in fact, than what 
is happening in the Everglades, where Senator Nelson has made a 
legitimate significant issue of the Burmese python, where 
people with pythons have essentially decided that they are 
going to turn their pythons out into the Everglades. Today, we 
have 150,000, it is estimated, pythons that are taking over the 
Everglades. A nonnative invasive species.
    Senator Feinstein. Oh, my goodness.
    Secretary Salazar. And those are the kind of problems that 
end up becoming charges of the Federal Government, which then 
we have to deal with. Those are the kinds of issues that I 
think require us to do some strategic thinking about how we are 
going to deal with them, and I will do that.
    Senator Feinstein. I appreciate it. Thank you very much.
    Do you have any other comments?
    Senator Alexander. Only to say to the Senator from North 
Dakota, we will take some of the elk. We have been trying to 
get more into the Smokies.
    And second, we have some old boys in east Tennessee who 
they give night goggle visions to and they go out and shoot 
hogs at night, and that is how we get rid of them. And we will 
loan them to you.
    Senator Dorgan. We have got plenty of hunters in North 
Dakota that will find their mark. But are you looking for live 
elk or dead elk?
    Well, then you just send some trucks.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Feinstein. Well, we may have accomplished something 
this morning after all.
    Thank you very much, Mr. Secretary. It is good to have you 
aboard. It is good to work with you, and this subcommittee 
looks to do right by you, too. So thank you very much.
    Secretary Salazar. Thank you very much, Senator Feinstein, 
Alexander, Dorgan, and Reed, everybody else who is here.
    Senator Feinstein. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted by Senator Byron L. Dorgan
                     indian guaranteed loan program
    Question. The Department's Office of Indian Energy and Economic 
Development provides much needed access to capital in Indian country 
through its Indian Guaranteed Loan Program. This program provides 
access to financial capital by guaranteeing and insuring loans and 
tribal bonds to promote reservation economic development. The Program 
supports the development of Indian-owned businesses, which in turn 
creates reservation jobs. This program has proven to be one of the most 
successful Federal economic development programs in the Nation. The 
Program currently leverages appropriated dollars at a 13 to 1 ratio. 
This program has generated jobs and employment opportunities from the 
resulting growth and expansion of reservation economies. The default 
rate under this program is less than 1.5 percent annually, far 
outperforming other federally guaranteed loan programs. The Program has 
been underutilized in recent years. In fiscal year 2008, more than a 
dozen traditional and renewable energy projects were not funded because 
of the Office's limited budget. In addition, this effective program has 
historically not kept up with inflation.
    Are you able to meet demand for this program?
    Answer. In 2008 and 2009 the Department of the Interior worked with 
potential borrowers and lenders interested in the Guaranteed Loan 
Program to identify qualified projects and allocate the available loan 
ceiling for each fiscal year. Projects that could not be serviced 
during a given fiscal year are addressed the next fiscal year to the 
greatest extent possible.
    Question. What is the percentage of applications you are able to 
finance each fiscal year?
    Answer. In 2008, we were able to fund 27 guaranteed loans and 18 
insured loans and expend 100 percent of our loan ceiling. Because of 
the nature of the program and our hands-on coordination with the 
lenders, it is not possible to provide a percentage answer. During 
preliminary discussions, we indicate to the lending community whether 
or not the project would qualify for the program and if it does what 
the likelihood would be of obtaining an allocation during that fiscal 
year.
    Question. Are you able to finance energy projects with the current 
funding?
    Answer. We are able to fund projects similar to those we have 
funded in the past. This includes energy projects.
    Question. Would you support doubling or tripling the funding for 
the Indian Guaranteed Loan Program so that it can accommodate demand 
and energy projects that require greater capital investment?
    Answer. Development of renewable and conventional energy resources 
in an ownership position is critical for many tribes who rely on these 
resources for economic development or economic diversity. We would be 
able to manage any increased funding and have the technical staff 
available to evaluate energy development projects for inclusion in the 
Guaranteed Loan Program.
                       administrative cost grants
    Question. Administrative Cost Grants are used by those self-
governance tribes who take over the operation of Bureau of Indian 
Education schools. The Administrative Cost Grant funds are used to 
cover the costs of the vital administrative, management, auditing, and 
fiscal accounting functions that tribal school boards must perform 
pursuant to Federal law and prudent management practice. Currently, 
these costs are being funded at only 62.36 percent. This level of 
funding creates a shortfall that the tribe either must make up from 
some other funding source, or services to students must be cut back. 
The funding for administrative cost grants has not been increased since 
2003.
    In the fiscal year 2010 budget request, the administration did 
propose an increase in Bureau of Indian Affairs contract support costs 
of $5.5 million, and an increase of $107 million for Indian Health 
Service support costs. However, no increase was proposed for 
Administrative Cost Grants.
    Could you please explain the administration's reasoning in 
requesting increases in Bureau of Indian Affairs and Indian Health 
Service support costs, but not for tribally operated schools?
    Answer. The 2010 President's budget addressed many of the 
challenges in Indian Country. The $5.5 million increase for Contract 
Support and the $2 million increase for the Indian Self-Determination 
Fund support tribal management activities, and provide the resources 
necessary for tribes to manage their own programs.
    Although there is not an increase for Administrative Cost Grants, 
the 2010 President's budget sustains congressional increases for the 
Bureau of Indian Education (BIE) in 2009, and provides an additional 
increase of $72 million for several key activities that will improve 
Indian education. The 2010 request includes $391.7 million for Indian 
Student Equality Program (ISEP) formula funds, an additional $17 
million over 2009. This is one of the primary sources of funding for 
the BIE's 169 elementary and secondary schools and 14 dorms. Funds 
directly support schools for core operating costs, such as salaries for 
teachers, aides, administrators, support staff, and supplies, and 
classroom materials.
    Facility Operations, under Elementary and Secondary Programs, is 
provided an additional $2 million in this request. The program funds 
operational expenses, such as electricity and custodial services, for 
educational facilities at all 183 BIE schools and dormitories. Schools 
are operated and maintained in order to ensure their continued safety 
and usefulness for educational purposes. Additional funds are included 
in the construction program for major and minor improvement projects.
                                 ______
                                 
               Questions Submitted by Senator Ben Nelson
    Question.  It is my understanding that the United States Geological 
Survey (USGS) and the University of Nebraska--Lincoln have completed a 
major global climate change/water study that is designed to form the 
basis for a major cooperative research agenda for the Platte River and 
the High Plains. As you know this is a very productive and ecologically 
diverse area. What are your plans for this study and have you included 
any funding in the fiscal year 2010 budget for pursuing 
recommendations?
    Answer. In 2009, the USGS is completing a science plan for the 
Great Platte River Basin to address the effects of climate impacts on 
sensitive ecosystems, natural resources, and human infrastructure. The 
report, Climate-Impacts Science Plan for the Greater Platte River 
Basin, is to be published by early 2010. The 2010 budget request does 
include funds for efforts such as this; however, project funding levels 
have yet to be determined.
    Question.  Since water availability and use are of increasing 
concern. There are many competing uses for water. Climate variability 
and land use are having an impact. How do you see the role of the 
Department of the Interior evolving or changing with respect to water? 
How do you expect to interact with other departments and agencies?
    Answer. USGS scientists are increasing their research focus on the 
links between water availability and climate change, climate 
variability and land use. Our studies have demonstrated a number of 
emerging problems associated with the effects of earlier snowmelt and 
increased rainfall versus snowfall in western mountains on water 
supply. A recent example of improved collaboration among Federal 
agencies (USGS, Bureau of Reclamation, NOAA, and U.S. Army Corps of 
Engineers) led to the 2009 USGS publication of ``Climate Change and 
Water Resources Management: A Federal Perspective'', jointly authored 
by the four agencies as USGS Circular 1331.
    To focus our efforts on the issue of water availability and water 
use, the USGS is preparing an implementation plan for a National Water 
Availability and Use Assessment of the United States as called for in 
both the USGS Science Strategy, Circular 1309, Facing Tomorrow's 
Challenges--U.S. Geological Survey Science in the Decade 2007-2017 and 
in the Omnibus Public Land Management Act of 2009 (Public Law 111-11) 
signed by the President on March 30, 2009.
                                 ______
                                 
               Questions Submitted by Senator Jon Tester
    Question. If the Department of the Interior were to cut AML funding 
from certified States does the agency have plans for providing 
additional resources to cleanup mine sites in States like Montana?
    Answer. The President's budget for fiscal year 2010 proposes to 
eliminate payments to certified States and tribes. Therefore, the 
projection for payments to be made to States and tribes in fiscal year 
2010 will decrease by $141.5 million, to $232.4 million. The 
elimination of these payments will focus AML funding on the most 
hazardous coal sites and high-priority coal problems.
    Question. Has the Department considered alternative proposals that 
would ensure that all AML funding for certified States is directed 
toward either coal or hardrock mine cleanup to meet the original goals 
of the reclamation program to reduce threats to health and safety and 
clean up our air and water?
    Answer. The Surface Mining Control and Reclemation Act of 1977 
amendments allow certified States and tribes to use their AML funding 
for coal on hard rock mine reclamation. The President's budget for 
fiscal year 2010 proposes to eliminate payments to certified States and 
tribes. Therefore, the projection for payments to be made to States and 
tribes in fiscal year 2010 will decrease by $141.5 million, to $232.4 
million. The elimination of these payments will focus AML funding on 
remaining high-priority coal problems.
    Question. How will the Department make up for the critical shift in 
funding away from housing improvement in the Housing Improvement 
Program (HIP), which helps the poorest of the poor in Indian country?
    Answer. The 2010 President's budget requests $12.6 million for the 
HIP, and an additional $1.1 million in regional oversight for the 
management of the program. This combined funding of $13.7 million is 
equivalent to the 2009 enacted level. The reduction of $1.1 million 
from the HIP line item in 2010 and the corresponding $1.1 million 
increase in regional oversight was a necessary shift in funding to fill 
a gap in the oversight of the program.
    Question. What is the Department schedule for spending Recovery Act 
funds on replacement school construction, given the dramatic cut in the 
Education Construction budget for fiscal year 2010? If appropriated, 
will your budget eliminate the current school construction back-log? If 
not, how can you justify this Indian Country funding cut, given the 
well-documented need?
    Answer. The Replacement School Construction program provides for 
replacement of existing school campuses based on a pre-established 
priority list of 14 schools published in the Federal Register on March 
24, 2004. The priority is based on addressing the overall condition of 
education facilities.
    The first four schools on the priority list have already been 
funded. The fifth school received funding in fiscal year 2009 and 
planning for the sixth school is scheduled for fiscal year 2010. The 
next three replacement schools on the priority list were selected for 
funding under the Recovery Act, as well as two components of prior 
replacement schools.
    The 2010 Education Construction budget is funded at $113 million, 
$15.8 million below the 2009 enacted level. This reduction takes into 
account the five schools that will be replaced with Recovery Act 
funding. The budget still funds planning and design for three schools, 
provides funding for three school facility replacements, and maintains 
necessary annual school maintenance funding.
    Question. Given the well-documented need to improve Indian 
healthcare and economies, why did you eliminate funding for the Inter 
Tribal Bison Cooperative (ITBC), a group that enables tribes to produce 
culturally appropriate, reduced fat meats, while supporting tribal 
agricultural business enterprises?
    Answer. The Bureau of Indian Affairs Natural Resources Management 
program assists tribes in the management, development, and protection 
of Indian trust land and natural resource assets. The fiscal year 2010 
budget provides over $23 million for this crucial work. As in prior 
years, programs including the ITBC will be considered for funding via a 
merit-based process that considers programs with existing memoranda of 
understanding, legal settlements, treaty rights, or that have shown to 
be of merit in the past. The fiscal year 2010 BIA budget does not 
contain specific funding for the ITBC, however the ITBC has fared well 
in previous merit-based review processes.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander
    Question. The last Environmental Impact Statement (EIS) that was 
conducted by the Department of the Interior concerning the impacts of 
coal mining in Tennessee was done in 1985. Many things have changed 
since that time. These changes include developments in the technology 
and methods used for mining, changes in marketplace conditions, new 
effluent standards developed by EPA, new information about threatened 
and endangered species, and the experience of both the State and the 
Office of Surface Mining (OSM) in regulating mining.
    Does OSM believe that a new EIS needs to be undertaken?
    Answer. After careful review, the OSM determined that preparing a 
comprehensive programmatic EIS to address all Federal regulation of 
coal mining in Tennessee under the National Environmental Policy Act of 
1969 (NEPA) is not warranted.
    Question. If not, why not?
    Answer. Under section 702(d) of the Surface Mining Control and 
Reclamation Act of 1977, adopting or revising a Federal program for a 
State is not a ``major Federal action'' subject to section 102 of NEPA. 
Hence, revising the Tennessee Federal program at 30 CFR Part 942, 
including the State-specific standards and procedures contained in it 
would not be a ``major Federal action'' under NEPA subject to 
preparation of an EIS. Further, OSM already complies fully with NEPA 
for every permitting action under the Tennessee Federal program. Each 
environmental review under NEPA for permitting actions takes into 
account all relevant information, including site-specific information 
needed to ensure the validity of our NEPA evaluation.
    Question. If the agency believes it's necessary, when could the 
agency begin this process?
    Answer. For the reasons stated in the two previous questions, OSM 
does not believe the process is necessary.
    Question. How long would it take?
    Answer. For the reasons stated in the two previous questions, OSM 
does not believe the process is necessary.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Mr. Secretary, Ship Island, one Mississippi's Gulf Coast 
barrier islands, is an extremely popular beach and tourist spot. Since 
Hurricane Katrina hit in 2005, Ship Island has received too little 
attention from the National Park Service (NPS). Two years passed before 
temporary bathrooms and temporary shade structures were put on the 
island. Now Fort Massachusetts, a historic Civil War site, is in danger 
of losing its structural foundations due to severe beach erosion. Does 
the National Park Service plan to address this situation?
    Answer. Hurricane Katrina dealt a very serious blow to the Gulf 
Coast. Reconstruction efforts were slow to start, but will be completed 
at the Gulf Island National Seashore in May of 2010. NPS has begun 
repairs and rehabilitation efforts at Fort Massachusetts and 
obligations to date equal $34,263. The current approved budget is 
$730,000. This project will be completed in two phases with phase I due 
to be completed in 2009 and phase II due to be completed in May of 
2010.
    Question. The National Heritage Area Program has become 
increasingly popular, and funding for the program in your budget has 
remained static. Now that there are 49 heritage areas across the United 
States (including three in Mississippi), most areas are hardly funded, 
and the program office is understaffed. How does the Department of the 
Interior intend to solve these fundamental and growing problems with 
this program?
    Answer. The 2009 Omnibus Appropriations Act, Congress directed NPS 
to develop new guidelines for the Heritage Partnership program which 
require self-sufficiency plans for all areas within a reasonable period 
of time. It further directed NPS to require the adoption of a credible 
self-sufficiency plan or satisfactory work towards development of such 
a plan to be a condition of continued funding for all plans after 
fiscal year 2009. These guidelines and the plans will assist NPS to 
better manage this program.
    Question. Mr. Secretary, I have been working for several years to 
protect Cat Island within the NPS' Gulf Islands National Seashore in 
Mississippi. In 2008, I secured $2 million in NPS Land Acquisition 
funding for Cat Island and expected this project to be completed at the 
end of last year. I now understand the long-term protection of Cat 
Island has been tied up by an issue within the Department of the 
Interior's Appraisal Services Directorate. This is one of many projects 
across the country that has been delayed by appraisal issues within the 
Department. Given your interest in ramping up funding for the Land and 
Water Conservation Fund as illustrated by the Department's fiscal year 
2010 budget, how do you plan to address appraisal issues and the 
Appraisal Services Directorate to ensure projects such as Cat Island 
are completed on a timely basis while maintaining full accountability 
in the DOI appraisal process?
    Answer. Due to the unique requirements of the Cat Island project, 
the standard appraisal process was not required and the current status 
of the project is not a result of the appraisal process. Rather than 
have Appraisal Services provide a list of qualified appraisal 
contractors, the Conservation Fund selected the appraiser. The State of 
Mississippi conducted the initial review of the appraisal. However, 
because of internal concerns with the appraisal, the NPS subsequently 
requested a technical review by the Department's Appraisal Services 
Directorate (ASD). This technical review identified some issues that 
needed to be resolved, and options were identified to move the process 
forward but the family was not willing to consider these options.
    The appraisal process plays a significant role in the mission of 
Interior by identifying the fair market value of parcels of land for 
acquisition or exchange to protect stakeholder interests. To support 
the Presidential initiative to increase the LWCF, the budget request 
included additional funding for the ASD to increase capacity. The 
additional funding will be used to hire two expert appraisers to manage 
complex projects. The Department will also continue efforts to refine 
business processes and streamline contracting. Interior will examine 
process improvements, assess cycle times at each of the levels of the 
appraisal process and ultimately ensure cost effectiveness. We are 
working to improve the process to provide fair analysis; however, a 
detailed appraisal that incorporates evaluations of resource issues may 
take time to complete.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
    Question. I am pleased you are taking a thorough and careful 
approach to develop a program for energy development on the Outer 
Continental Shelf (OCS). Our Nation must work together on 
comprehensive, long-term actions that will stabilize gas and oil 
prices, prevent energy shortages, and achieve national energy 
independence. Resources on the OCS can contribute to these goals. The 
State of Maine has tremendous potential for offshore wind and tidal 
energy. Offshore wind resources just off the coast of Maine could 
provide more than 150 gigawatts of clean, renewable energy. Maine also 
has considerable potential for tidal energy. Yet, the OCS off the coast 
of Maine is not included in the potential areas of interest for 
renewable energy identified in your Draft Proposed Program (DPP) for 
OCS energy resources. When you release a revised program plan, will you 
add the tremendous resource off the coast of Maine to the areas of 
interest for renewable energy development?
    Answer. The DPP proposes an OCS Oil and Gas Leasing Program 
covering the years 2010-2015. In addition to OCS Lands Act statutory 
considerations, the DPP considers OCS renewable energy opportunities 
and denotes the potential for renewable energy development offshore of 
the State of Maine. Material Management Services (MMS) encourages 
States interested in developing renewable resources to submit comments 
to the DPP and the Department has extended the public comment period 
through September 21, 2009, for this purpose. The MMS will include in 
its analysis the considerable potential for renewable energy offshore 
of Maine and consider projects for which information is available.
    Question. I am a strong supporter of the National Park Service 
Centennial Initiative. This program would celebrate the 100th 
anniversary of the National Park System (NPS) by infusing our parks 
with a $1 billion mandatory spending fund over 10 years, which will be 
matched by an additional $1 billion in private donations. Eligible 
projects will be prioritized through input from both the public and a 
broad cross-section of NPS employees. My State of Maine is home to the 
first National Park east of the Mississippi River, Acadia National 
Park, a true gem on Maine's rocky coast. I believe this Challenge Fund 
should remain a priority for the National Park Service, but I 
understand there has been some difficulty identifying offsets for it. 
Will you work with Congress to identify offsets for the Centennial 
Challenge Fund so that we can support this important infusion of parks 
funding?
    Answer. In 2008, the Centennial Challenge invited individuals, 
foundations, businesses, and the private sector to contribute at least 
$100 million annually to support signature programs and projects in our 
National Parks. To encourage philanthropy and partnerships, the 2008 
budget proposed a new National Park Centennial Fund of $100 million 
that would match up to $100 million of mandatory funding annually for 
the next 10 years. In the 2008 appropriations act, Congress supported 
the concept and funded this initiative at $24.6 million through 
discretionary funds.
    The NPS went out to the public with their request and received 
tremendous response from the public and State and local governments. 
The response proposed matching funds for projects and programs totaling 
$380 million. The NPS went through a rigorous process to select the 
signature projects and programs to fund and leveraged the $24.6 million 
in Federal dollars with the proposed matching funds resulting in $52 
million invested in National Parks.
    In 2010, NPS has requested $25 million in discretionary funding for 
this program that will require at least $25 million in matching funds. 
If enacted, NPS will again go out to the public and the State and local 
governments to seek proposals.
    No offsets are needed for this program.

                          SUBCOMMITTEE RECESS

    Senator Feinstein. The subcommittee will stand in recess.
    [Whereupon, at 11:08 a.m., Wednesday, June 3, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
